 SIGAR
       d                                                   Special Inspector General for
                                                            Afghanistan Reconstruction




                                                                           SIGAR Audit 13-8




         Taxes: Afghan Government Has Levied Nearly a
         Billion Dollars in Business Taxes on Contractors
         Supporting U.S. Government Efforts in Afghanistan




                                                                               M A Y
                                                                             2013
SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts
                                              May 2013



SIGAR
                                              Taxes: Afghan Government Has Levied Nearly a Billion Dollars in Business
                                              Taxes on Contractors Supporting U.S. Government Efforts in Afghanistan


Special Inspector General for
                                              SIGAR AUDIT 13-8
Afghanistan Reconstruction


WHAT SIGAR REVIEWED                           WHAT SIGAR FOUND
U.S. agencies, including the                  Since 2008, the Afghan Ministry of Finance (MOF) has levied over $921
Department of Defense (DOD),                  million in business taxes, and associated penalties, on 43 contractors
Department of State (State) Bureau            that support U.S. government efforts in Afghanistan. DOD, INL, and
of International Narcotics and Law            USAID have agreements with the Afghan government that provide
Enforcement Affairs (INL), and U.S.           exemption from certain Afghan taxes. SIGAR identified instances where
Agency for International Development          contractors were taxed despite these agreements. For example, $93
(USAID), have negotiated agreements           million of the $921 million represented taxes levied on business receipts
with the Afghan government that               and annual corporate income—a tax category that both the U.S. and
exempt their contracts from certain           Afghan governments have agreed should be exempt for contractors
Afghan business taxes. However,               operating under covered agreements. SIGAR also identified instances in
since 2008, the Afghan government             which the MOF assessed tax liabilities on contractors even though the
has levied taxes and tax-related              contractors held MOF-issued tax exemption certificates. For example, the
penalties on contractors supporting           MOF issued Business Receipts Tax and annual corporate income tax
U.S. government contracts in                  assessments on some DOD contractors, even though the contractors
Afghanistan that should be exempt             should have been exempt from both tax categories. Three DOD
from such taxes under the negotiated          contractors in SIGAR’s sample that held MOF-issued tax exemption
agreements.                                   certificates were improperly assessed nearly $59 million in business
                                              receipts and annual corporate income taxes. U.S. and MOF officials
The U.S. government has an interest           disagree about the tax-exempt status of subcontractors. MOF officials
in addressing the business taxation           assert that the DOD and State INL agreements provide tax-exempt status
challenges that contractors are facing        only to prime contractors, and not subcontractors, whereas U.S.
to reduce the cost of projects to the         government officials contend that the agreements provide tax exemption
American taxpayer. This audit focuses         for all non-Afghan companies (both prime and subcontractors)
on business taxes and associated              supporting U.S. government efforts. Given these ongoing disputes and
penalties levied on contractors               the ambiguous nature of the MOF-issued assessments, the 43
supporting the U.S. government’s              contractors in SIGAR’s sample have paid approximately $67 million of
efforts. Specifically, our objectives         the $921 million in total tax assessments, and most still face unresolved
were to determine (1) the amount              assessments. As a result of the outstanding assessments, the MOF has
and types of inappropriate business           restricted contractors’ freedom of movement and refused to renew
taxes and associated penalties the            business licenses, and the Afghan government has even arrested some
Afghan government assessed and the            contractor personnel. The combined effect is the potential interruption of
amount paid and reported by                   support to U.S. military operations.
contractors supporting U.S.
government contracts in Afghanistan,          SIGAR also found that INL and DOD contracting officers do not fully
and (2) the extent to which U.S.              understand Afghanistan’s tax laws and, as a result, they have improperly
government agencies have taken                reimbursed contractors for taxes paid to the Afghan government.
steps to minimize the tax burden              Additionally, while DOD, INL, and USAID have taken some steps to help
imposed by the Afghan government              their prime contractors gain tax exemption, DOD and INL have not taken
on these contractors.                         sufficient steps to ensure that their subcontractors obtain required tax
                                              exemption certificates.




    For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
Afghan Government Tax Assessment on Contractors Supporting U.S. Government Contracts
                                                                 Business Receipts &
                                                                                                      Number of
        Agency              Total Tax          Withholdings       Annual Corporate   Undeterminable c
                                                                                                      Contractors
                                                                    Income Taxes
USAID                    $5,458,7138           $5,223,048               $235,665                       $0                7

DOD                      $92,875,298           $8,671,298            $62,704,000             $21,500,000                17

State                    $19,095,672           $5,238,000              $1,200,000            $12,657,672                 8

Multiple Agencies a     $803,967,530          $25,677,833            $29,300,000           $748,989,697                 11

Total b                 $921,397,213          $44,810,180            $93,439,665           $783,147,368                 43

Source: SIGAR analysis of contractor data.
Notes:
aMultiple agency contractors are contractors that work under contracts for a combination of DOD, State, and USAID. No

contractor in our sample indicated that it had contracts with agencies other than DOD, State, and USAID. bFor figures presented
to SIGAR in Afghanis, we converted to U.S. dollars using the Afghani to U.S. dollar exchange rate published by Da Afghanistan
Bank on October 18, 2012. This table reflects paid and assessed amounts. cSome taxes were undeterminable because the tax
assessment issued by the Afghan government did not indicate the specific category of tax that was being assessed. However,
based on our analysis, much of this total amount is likely illegitimate.



 WHAT SIGAR RECOMMENDS
 SIGAR recommends that the Secretary of State, among other things, develop a consistent, unified position on what the
 U.S. government deems appropriate taxation of contractors supporting U.S. government efforts in Afghanistan. SIGAR
 also recommends that State and USAID determine if taxes reimbursed by INL and USAID were legitimate and recover any
 inappropriately reimbursed taxes. SIGAR is also making three recommendations to State, USAID, U.S. Army Corps of
 Engineers (USACE), and the U.S. Central Command’s Joint Theater Support Contracting Command (CJTSCC) to develop
 procedures for contractors to obtain appropriate documentation of tax-exempt status with the Afghan government, issue
 guidance to properly identify taxes in contracts and invoices, and take steps to prevent the improper reimbursement of
 taxes to contractors. In addition, SIGAR identifies two matters for Congressional consideration to ensure that Congress
 has complete information on taxes levied by the Afghan government and to address any improper taxation by the Afghan
 government.
 In commenting on a draft of this report, CJTSCC and USACE concurred with SIGAR’s recommendations. State did not
 explicitly agree or disagree with SIGAR’s recommendation to develop a consistent, unified position on what the U.S.
 government deems appropriate taxation of contractors; it argued that such a unified position already exists and that it is
 inappropriate to suggest that there are inter-agency differences. SIGAR disagrees. SIGAR’s finding that contractors have
 failed to receive guidance on differing tax treatment by different federal agencies shows that inter-agency differences do,
 in fact, exist. Regarding SIGAR’s recommendation to determine if reimbursed taxes were legitimate and to recover any
 inappropriately reimbursed taxes, State neither agreed nor disagreed but requested further details on SIGAR’s analysis.
 SIGAR provided State with specific information on the types of taxes it identified during an exit conference in January
 2013. This information should be sufficient for State to implement SIGAR’s recommendation. Although SIGAR is willing
 to provide additional information on our analysis, SIGAR notes that it is State’s responsibility to ensure that the taxes it
 reimburses are legitimate and to recover any inappropriately reimbursed taxes. USAID neither agreed nor disagreed with
 SIGAR’s recommendations, but instead stated that the recommendations made had already been implemented, were
 not applicable, or lacked detailed analysis for the agency to implement. SIGAR disagrees and believes its
 recommendations are well supported and valid.


        For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
May 14, 2013

The Honorable John F. Kerry
Secretary of State
The Honorable Charles T. Hagel
Secretary of Defense
General Lloyd J. Austin III
Commander, U.S. Central Command
Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers
U.S. Army Corps of Engineers
Major General Brown
Commander, CENTCOM Joint Theater Support Contracting Command
Dr. Rajiv Shah
Administrator, U.S. Agency for International Development

This report discusses the results of SIGAR’s audit of business taxes levied by the Afghan
government on contractors supporting U.S. government efforts in Afghanistan. We recommend
that the Secretary of State develop a consistent, unified position on what the U.S. government
deems appropriate taxation of contractors supporting U.S. government efforts in Afghanistan;
incorporate clear and complete language concerning this position into future bilateral
agreements with the Afghan government; communicate this position to all contractors; and
ensure that any taxes levied by the Afghan government are accurately reported to Congress.
We also recommend that the Secretary of State determine if taxes reimbursed by the Bureau
of International Narcotics and Law Enforcement Affairs (INL) and the U.S. Agency for
International Development (USAID) were legitimate and recover any inappropriately reimbursed
taxes.
In addition, we recommend that the State Department Office of the Procurement Executive; the
USAID Office of Acquisition and Assistance; the Commander, U.S. Army Corps of Engineers
(USACE); and the Commander, CENTCOM Joint Theater Support Contracting Command
(CJTSCC), develop procedures for contractors to obtain appropriate tax-exemption certificates,
issue guidance on how to properly identify taxes in contracts and invoices, and ensure through
guidance and training that contractors are reimbursed only for eligible tax payments. SIGAR
also identified two matters for congressional consideration.
We received written comments on a draft of this report from USACE, CJTSCC, State, and USAID,
which we incorporated, as appropriate. With regard to our recommendations, USACE and
CJTSCC concurred and described the actions they are taking to address them. Their
comments are presented in appendices II and III respectively.
State generally concurred with three of our recommendations to develop procedures to: (1)
help contractors obtain appropriate documentation of tax exempt status; (2) issue guidance
and training to contracting officers on how to properly identify taxes in contracts and invoices;
and (3) ensure that contractors are reimbursed only for eligible tax payments. As for our
recommendation that State determine whether taxes reimbursed by INL and USAID were
                legitimate and that it recover any inappropriately reimbursed taxes, State asserted that it could
                not act on that recommendation until we provide further details about the taxes identified in
                the report before it can act. State also declined to either agree or disagree with our
                recommendation to develop a consistent, unified position on what the U.S. government deems
                appropriate taxation of contractors supporting U.S. government efforts. It argued that such a
                unified position already exists and that it is inappropriate to suggest that there are inter-agency
                differences. State’s comments and our response are presented in appendix IV.
                USAID did not explicitly agree or disagree with our recommendations, but instead stated that
                the recommendations had already been implemented, were not applicable to USAID, or—in the
                case of our second recommendation to determine if taxes reimbursed by USAID were
                legitimate and to recover any inappropriately reimbursed taxes—lacked detailed analysis for
                the agency to implement the recommendation. USAID also took issue with a number of our
                findings. USAID’s comments and our response are presented in appendix V.
                SIGAR conducted this audit under the authority of Public Law No. 110-181, as amended; the
                Inspector General Act of 1978, as amended; and in accordance with generally accepted
                government auditing standards.




                John F. Sopko
                Special Inspector General
                   for Afghanistan Reconstruction




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                    Page ii
                                                 TABLE OF CONTENTS

Background .................................................................................................................................................................. 1 
MOF Application of the Tax Law Resulted in Nearly a Billion Dollars in Taxes Levied on Contractors Supporting
U.S. Efforts and May Have Hindered Operations in Afghanistan .............................................................................. 6 

Contracting Agencies Erroneously Reimbursed Contractors for Afghan Taxes and Have Not Taken Sufficient
Steps to Help Contractors Obtain Tax-Exemption Certificates ................................................................................ 11 
Conclusion.................................................................................................................................................................. 13 

Recommendations .................................................................................................................................................... 14 
Matters for Congressional Consideration................................................................................................................. 14 
Agency Comments ..................................................................................................................................................... 15 

Appendix I - Scope and Methodology ....................................................................................................................... 18 
Appendix II - CENTCOM–Joint Theater Support Contracting Command Comments .............................................. 19 
Appendix III - U.S. Army Corps of Engineers Comments .......................................................................................... 21 
Appendix IV - Department of State Comments ........................................................................................................ 23 
Appendix V - U.S. Agency for International Development Comments ..................................................................... 29 
Appendix VI - Acknowledgements ............................................................................................................................. 36 


TABLES 

Afghan Government Tax Assessment on Contractors Supporting U.S. Government Contracts.............................. 3 

Table 1 - Business Taxes Outlined in Afghanistan’s 2009 Income Tax Law ............................................................ 2 
Table 2 - Afghan Government Tax Assessment on Contractors Supporting U.S. Government Contracts .............. 6 
Table 3 - Afghan Ministry of Finance Interpretation of U.S. Bilateral Agreements .................................................. 8 




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                                                                              Page i
ABBREVIATIONS 

        AISA              Afghan Investment Support Agency
        BRT               Business Receipts Tax
        CENTCOM           U.S. Central Command
        CJTSCC            CENTCOM–Joint Theater Support Contracting Command
        DOD               Department of Defense
        FPDS              Federal Procurement Data System
        INL               Bureau of International Narcotics and Law Enforcement Affairs
        ISAF              International Security Assistance Force

        MOF               Ministry of Finance
        NATO              North Atlantic Treaty Organization
        SIGAR             Special Inspector General for Afghanistan Reconstruction
        SOFA              Status of Forces Agreement
        USACE             U.S. Army Corps of Engineers
        USAID             U.S. Agency for International Development

        VAT               Value Added Tax




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                  Page ii
Since 2002, Congress has appropriated over $89 billion to U.S. government agencies, including the
Department of Defense (DOD), Department of State (State), and the U.S. Agency for International development
(USAID), to implement humanitarian and reconstruction programs and projects in Afghanistan.1 U.S.
government agencies, in turn, have awarded billions of dollars to contractors to implement those programs and
projects. Contractors play important roles in the reconstruction effort by procuring goods and services needed
to build roads, schools, hospitals; equip, train and house Afghan security forces; and support U.S. personnel
working in Afghanistan. DOD, State’s Bureau of International Narcotics and Law Enforcement Affairs (INL), and
USAID negotiated agreements that exempt their contractors from select taxes levied by the Afghan
government. In this audit, we examined contracts awarded by U.S. government agencies that support both
reconstruction and non-reconstruction efforts.2
This audit focuses on business income taxes and associated penalties that the Afghan government levies on
contractors supporting U.S. government contracts in Afghanistan.3 Specifically, our objectives were to
determine: (1) the amount and types of inappropriate business taxes and associated penalties the Afghan
government assessed and the amount paid and reported by contractors supporting U.S. government contracts
in Afghanistan and (2) the extent to which U.S. government contracting agencies have taken steps to minimize
the tax burden imposed by the Afghan government on these contractors.
To accomplish these objectives, we reviewed Afghan laws, U.S. policies, and bilateral agreements governing
contractor taxation in Afghanistan. We also obtained and analyzed tax assessments and met with officials
from DOD, State, USAID, the Afghan government, and numerous companies operating in Afghanistan. We
conducted our work in Washington, D.C., and Kabul, Afghanistan, from June 2012 through February 2013, in
accordance with generally accepted government auditing standards. Appendix I includes a discussion of our
scope and methodology.


BACKGROUND

Afghanistan has maintained a formal tax code since at least 1965, adopting various updates between 1965
and 2009. In November 2009, the Afghan government adopted a comprehensive tax reform law―the 2009
Income Tax Law―that created a unified tax system governing all aspects of revenue collection. The 2009 law
contains five primary taxes associated with income earned by all companies working in Afghanistan. The
primary taxes include the following:
        Business Receipts Tax (BRT)―a levy on all revenues a company receives in a given year.
        Annual Corporate Income Tax―a levy on the profits a company earns annually.
        Employee Withholding Tax―a levy on the wages of employees of companies that varies depending on
         the annual salary of each employee.




1Reconstruction funding falls into five categories: security, governance and development, counter-narcotics, humanitarian,
and oversight and operations. As of September 30, 2012, cumulative appropriations for reconstruction in Afghanistan total
approximately $89 billion, $51 billion of which is appropriated to build the Afghan National Security Forces.
2Non-reconstruction efforts include things such as providing food for U.S. troops, security for U.S. installations, and

transporting U.S. materials.
3Although    we had planned to review all Afghan taxes levied on contractors supporting U.S. efforts in Afghanistan, after our
initial fieldwork, we determined that this audit will focus on business income taxes. Contractors we interviewed stated that
tax assessments relating to business income taxes were their primary tax concern.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                                  Page 1
        Contractor Withholding Tax―a levy on any work performed by or products purchased from vendors that
         varies depending on the income and license status of the vendors used.
        Rental Withholding Tax―a levy on landlords of property leased for business use that varies based on
         the value of the rented property.

Table 1 provides an overview of the taxation mechanisms in the 2009 Income Tax Law.

Table 1 - Business Taxes Outlined in Afghanistan’s 2009 Income Tax Law
            Tax                                            Liability                                Responsible Payer

Business Receipts Tax          Based on industry and revenues:                                  Business must remit
                                                                                                payment within 15 days
                               Quarterly revenue <$14,191: no tax due;
                                                                                                after the end of the quarter
                               Quarterly revenue >$14,191: 2 percent of quarterly
                               revenue, with special provisions for airline, hospitality, and
                               telecommunications companies

Annual Corporate Income Tax    Annual flat tax:                                                 Business must remit
                                                                                                payment within 3 months of
                               20 percent of profit after deduction of allowable expenses
                                                                                                the end of the year

Employee Withholding Tax       Based on monthly employee wage:                                  Employer must remit
                                                                                                withholding within 10 days
                               $0 - $94: no withholding;
                                                                                                after the end of the month of
                               $94 - $236: 2 percent withholding of amount over $94;            payment
                               $236 - $1,892: $3 + 10 percent withholding of amount
                               over $236;
                               >$1,892: $168 + 20 percent withholding over $1,892

Contractor Withholding Tax     Based on annual value of payments to subcontractors:             Employing contractor must
                                                                                                remit withholding within 10
                               Under $9,460: No withholding;
                                                                                                days after the end of the
                               Over $9,460 to a contractor with a valid business license: 2     month of payment
                               percent withholding;
                               >$9,460 to a company without a valid business license: 7
                               percent withholding

Rental Withholding Tax         Based on rental cost:                                            Tenant must remit
                                                                                                withholding within 15 days
                               $0 - $189: no withholding tax;
                                                                                                after the end of the month of
                               $189 - $1,892: 10 percent withholding;                           payment
                               >$1,892: 15 percent withholding

Source: SIGAR Analysis of Afghan Income Tax Law (2009). The figures are based on conversion rate of 52.85 Afghanis per
U.S. dollar published by Da Afghanistan Bank on October 18, 2012.


In addition to defining the types of taxes, the 2009 Income Tax Law also establishes penalties for non-
compliance. These penalties include:
        0.1 percent penalty for each day that a tax payment is past due;
        10 percent penalty for failing to withhold taxes from employees, contractors and landlords;



SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                             Page 2
          20,000 Afghani ($378) penalty for failing to keep adequate tax records, failing to provide access to tax
           records, or failing to have a tax identification number;4
          500 Afghani ($9.46) penalty for each day past the due date that a tax return is not filed; and
          100 percent penalty of the tax liability if the company is found to be evading taxes.
The tax law places the burden of tax liability determination, collection, and remittance on the employing
company. According to MOF officials, the employing companies are responsible for the taxes of their
employees, landlords, and vendors even if the company itself is tax-exempt; for example, a tax-exempt DOD
contractor can be held liable for a subcontractor failing to pay taxes to the MOF.
Additionally, the 2009 Income Tax Law requires contractors to file a detailed tax return and balance sheet to
report income, tax withholding, and other financial information; maintain and present their receipts, expenses,
and disbursements to determine their net income; file and pay a business receipts tax, based on the value of
their contracts; withhold taxes from salaries of their employees; and submit to the MOF salary and tax
statements for each employee. Similarly, contractors are required to withhold taxes from payments to vendors
and landlords and transfer those amounts to the MOF. In cases where the MOF believes that the information
provided on a contractor’s tax return does not correctly disclose the tax due, the MOF determines the amount it
believes is due and issues an amended assessment. Similarly, if a company has not prepared and filed a tax
return as required, the MOF determines the tax amount due and issues a notice of assessment for this
amount, including applicable penalties.
State agreed with the Afghan government that contractors supporting DOD contracts would comply with the
requirement that companies register with and be licensed by the Afghanistan Investment Support Agency
(AISA).5 Further, State has included guidance on a website maintained by the U.S. Embassy in Kabul stating
that contactors must obtain a business license to operate a business legally in Afghanistan.6 DOD, State, and
USAID contracting offices subsequently began requiring that contractors obtain a business license from AISA in
order to be awarded or continue operating in Afghanistan.7 After registering with AISA, the MOF assigns the
contractors a tax identification number. Contractors must renew their business licenses annually by
presenting a tax clearance letter from the MOF certifying the contractor’s compliance with Afghan tax law and
obligations.


Agreements with the Afghan Government Exempt Contractors Supporting U.S.
Government Efforts from Paying Afghan Taxes
The U.S. government does not have a comprehensive agreement with the Afghan government that governs
taxation of all contractors working on its behalf. Rather, individual U.S. government agencies have executed
separate bilateral agreements with the Afghan government that exempt contractors supporting their agency-
funded contracts from paying Afghan taxes. Although these bilateral agreements were adopted prior to the
enactment of the 2009 Tax Law, both U.S. and Afghan government officials agree that these agreements
remain in force and apply to current business transactions.




4Based    on conversion rate of 52.85 Afghanis per US dollar published by Da Afghanistan Bank on October, 18, 2012.
5Based    on Diplomatic Note 12-4021 sent by the Embassy in Kabul to the Afghan government on September 10, 2012.
6Embassy   of the United State Kabul, Afghanistan Frequently Asked Questions, http://kabul.usembassy.gov/business-
faq.html, accessed on December 3, 2012.
7To   establish and operate legally, all foreign and local companies are required to obtain an AISA Business License.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                                Page 3
DOD
The U.S. and Afghan governments entered into a Status of Forces Agreement (SOFA) in May 2003. The SOFA
exempts DOD personnel and contractors from paying taxes on goods and services provided in Afghanistan.
Specifically, the SOFA states that,
         “the Government of the United States of America, its military and civilian personnel,
         contractors and contractor personnel shall not be liable to pay any tax or similar charge
         assessed within Afghanistan.”
The SOFA further states that the acquisition of goods and services in Afghanistan by or on behalf of the U.S.
government are not subject to any taxes, custom duties, or other similar charges. Even though the SOFA refers
to U.S personnel and contractors, DOD and State officials agree that the SOFA applies only to DOD personnel
and contractors.8

INL

In February 2003 and in March 2006, INL entered into agreements with the Afghan government to provide tax-
exempt status to non-Afghan contractors supporting INL’s counternarcotics and law enforcement efforts. INL’s
agreements state,

         “Any funds, material and equipment introduced into Afghanistan by the USG [United States
         Government] or by any person or entity (including but not limited to contractors and grantees)
         funded by the USG pursuant to this Agreement shall be exempt from taxes, service charges
         and investment or deposit requirements and currency control in Afghanistan, and the import,
         export, acquisition, use or disposition of any such property or funds in connection with this
         Agreement shall be exempt from any tariffs, custom duties, import and export taxes, taxes on
         purchases or disposition and any other taxes or similar charges in Afghanistan.”9

Aside from INL’s activities, State does not have a formal agreement with the Afghan government to provide tax
exemption for other State contractors providing security, construction, and other services for the diplomatic
mission of the Embassy. In State’s response to a draft of this report, State noted that seeking a sales or
income tax exemption for contractors working at its mission in Afghanistan would be something that it does not
normally negotiate with other nations.

USAID

In September 2005, USAID established four Strategic Objective Grant Agreements with the Afghan
government. These agreements allow U.S. foreign assistance to be used for development and civil society
projects and state that the “assistance... is free from any taxes imposed under laws in effect in [Afghanistan].”
The agreements further stipulate that non-Afghan contractors working on behalf of USAID are tax-exempt.



8SIGAR  interviewed officials from all contracting agencies and met with officials from DOD Office of General Counsel, State
Office of the Legal Adviser, and USAID Regional Legal Office. DOD Office of General Counsel and State Office of the Legal
Adviser stated that the SOFA only applies to DOD contractors. USAID Regional Legal Office officials stated that SOFA does
not apply to USAID contractors.
9Letter of Agreement on Police, Criminal Justice, and Counternarcotics Support Programs Between The Government of the

United States of America and The Islamic Republic of Afghanistan (March 9, 2006); Letter of Agreement on Police, Justice,
and Counternarcotics Programs Between The Government of the United States of America and The Transitional Islamic
State of Afghanistan (February 19, 2003).




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                              Page 4
ISAF and NATO

In addition to the agreements between U.S. government agencies and the Afghan government, the North
Atlantic Treaty Organization (NATO) has entered into its own agreement with the Afghan government. The
Military Technical Agreement, signed in January 2002, governs the International Security Assistance Force’s
(ISAF) activities and grants ISAF military and civilian personnel tax-exempt status.10 The agreement also
provides that,
          “ . . ISAF will be allowed to contract direct [sic] with suppliers for services and supplies in
          Afghanistan without payment of tax or duties. Such services and supplies will not be subject
          to sales or other taxes.
                                                            ****
          . . . local personnel hired by ISAF will . . . [b]e exempt from taxation on the salaries and
          emoluments paid to them by the ISAF.”11
On March, 9, 2011, ISAF’s Commanding General issued a letter of interpretation to the Afghan government’s
Minister of Finance declaring that, as of March 21, 2011, Afghan contractors and employees were no longer
tax-exempt with regard to profits and wages earned while working on behalf of ISAF. In addition, the letter
declared that non-Afghan subcontractors to ISAF, as well as contractors, are exempt from taxes.12


MOF Has a Process for Granting Tax-Exempt Status
Even though these bilateral agreements exempting contractors from paying taxes are in place, contractors
must still obtain a tax exemption certificate from the MOF Revenue Department. The process for obtaining a
tax-exemption certificate involves three steps.
    1. Obtain a copy of the applicable bilateral agreement(s) that allow(s) exemption from taxes along with a
       letter from the awarding US government entity confirming the details of the contract, such as contract
       number and date, contract amount, period of completion of the contract project, and the income of
       which is claimed to be exempt from tax.

    2. Submit the above documents to the MOF Revenue Department along with details of the company,
       such as the legal name of the company, Tax Identification Number, and point of contact at the
       company.13 The letter of request is required to be in the Dari or Pashto language with a copy in
       English.




10ISAF conducts operations in Afghanistan to reduce the capability and will of the insurgency, support the growth in

capacity and capability of the Afghan National Security Forces, and facilitate improvements in governance and socio-
economic development. ISAF funding and forces come from the various NATO member states, primarily the US
government.
11 Military Technical Agreement between the International Security Assistance Force (ISAF) and the Interim Administration

of Afghanistan (‘Interim Administration’) (January 2002).
122011   COMISAF Letter of Interpretation: (March 9, 2011).
13The  company is also required to submit its interpretation of the applicability of the bilateral agreement to the company’s
activities in Afghanistan.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                               Page 5
      3. The MOF Revenue Department will issue a written ruling in response to the submission within 21
         calendar days of the receipt of all relevant information. “This private ruling will state clearly which
         activities are exempt (if any) and will also specify which tax types are exempt (if any).”14

MOF APPLICATION OF THE TAX LAW RESULTED IN NEARLY A BILLION DOLLARS
IN TAXES LEVIED ON CONTRACTORS SUPPORTING U.S. EFFORTS AND MAY
HAVE HINDERED OPERATIONS IN AFGHANISTAN

We identified over $921 million in taxes and associated penalties levied by the Afghan government on 43
contractors working on U.S. contracts from 2008 to 2012 (see table 2).15 Of this amount, $93 million
represented taxes levied on business receipts and annual corporate income—a tax category that both the U.S.
and Afghan governments agree should be exempt for contractors operating under covered agreements. An
additional $45 million represented withholdings from landlords, subcontractors, and employees. We could not
determine the legitimacy of these taxes, as the U.S. and Afghan governments disagree on the proper tax
treatment of subcontractors, as discussed below. We could not determine a tax category or the legitimacy of
the assessments for the remaining $783 million because we could not obtain adequate descriptions of the
taxes or penalties imposed. For example, contractors we interviewed were able to provide some
documentation that they received from the MOF detailing the taxes levied; however, this documentation was
often vague or contained errors such as mathematic miscalculations. In other cases, contractors told us that
tax assessments were verbally communicated by MOF personnel and that the MOF did not provide supporting
documentation. During this audit, we conducted several interviews at the Afghan Revenue Department
requesting documentation of tax assessments levied against contractors supporting U.S. operations. However,
these requests were denied and the documentation was never provided. Nevertheless, USAID, DOD, and INL
agree that Afghan taxes levied on non-Afghan contractors working for those agencies are illegitimate.16

Table 2 - Afghan Government Tax Assessment on Contractors Supporting U.S. Government Contracts

                                                                  Business Receipts &
                                                                                                       Number of
        Agency             Total Tax          Withholdings         Annual Corporate   Undeterminable c
                                                                                                       Contractors
                                                                     Income Taxes

USAID                   $5,458,7138            $5,223,048                 $235,665                        $0                 7

DOD                     $92,875,298            $8,671,298             $62,704,000             $21,500,000                    17

State                   $19,095,672            $5,238,000               $1,200,000            $12,657,672                    8

Multiple Agencies a    $803,967,530           $25,677,833             $29,300,000            $748,989,697                    11

Total b                $921,397,213           $44,810,180             $93,439,665            $783,147,368                    43



14AfghanistanRevenue Department, Confirming an Exemption from Income Taxation Under a Bilateral or Multilateral
Agreement, (March 7, 2011) p 2.
15The Afghan tax code allows for the review of a firm’s previous tax years if the MOF suspects that firm of evading taxes;

thus, the MOF may assess companies for tax years prior to the issuance of the 2009 tax revision.
16This position does not apply to contractors supporting Embassy operations, such as those providing security,

construction, and maintenance services.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                              Page 6
Source: SIGAR analysis of contractor data.
Notes:
aMultiple agency contractors are contractors that work under contracts for a combination of DOD, State, and USAID. No

contractor in our sample indicated that it had contracts with agencies other than DOD, State, and USAID. bFor figures
presented to SIGAR in Afghanis, we converted to U.S. Dollars using the Afghani to U.S. Dollar exchange rate published by Da
Afghanistan Bank on October 18, 2012. This table reflects paid and assessed amounts. cSome taxes were
undeterminable because the tax assessment issued by the Afghan government did not indicate the specific category of tax
that was being assessed. However, based on our analysis, we believe that much of this total amount is likely illegitimate.


MOF Issues Tax Assessments on Contractors Holding Tax Exemption Certificates
In our sample, we identified instances in which the MOF assessed tax liabilities on contractors even though the
contractors held MOF-issued tax exemption certificates. (For a complete discussion of our sample
methodology, see appendix I.) For example, the MOF has issued Business Receipts Tax and annual corporate
income tax assessments on some DOD contractors, even though the contractors should have been exempt
from both tax categories, and three such contractors in our sample were improperly assessed nearly $59
million in Business Receipts Tax and annual corporate income taxes. Similarly, despite the contractors’ tax-
exempt status, a contractor working with USAID, DOD, and INL was assessed more than $27 million in
Business Receipts Tax and Annual Corporate Income Taxes, and a USAID contractor was assessed over $1
million in these taxes and incurred associated penalties for the 4 previous years.
Contractors we interviewed have filed for reimbursements from their contracting agencies to recover taxes paid
to the Afghan government. One contractor we interviewed was granted a reimbursement by USAID for
$234,391 for taxes paid in Afghanistan,17 another contractor was reimbursed more than $230,000 by State,
and a third contractor was reimbursed more than $287,000 by DOD. Furthermore, other contractors we
interviewed stated that they have adjusted their winning bids to account for increased costs due to the Afghan
taxes. For example, one contractor that works with DOD, State, and USAID stated that it instructs its
subcontractors to include withholding taxes on their invoices and then factors taxes into its bids for
government contracts.


U.S. Government Agencies and MOF Disagree on Subcontractor Tax-exempt Status

U.S. and Afghan government officials disagree about the tax-exempt status of subcontractors. MOF officials
stated that the SOFA and INL agreements provide tax-exempt status only to prime contractors and not
subcontractors. U.S. government officials disagree with this position and stated the agreements provide tax
exemption for all non-Afghan companies (both prime contractors and subcontractors) supporting U.S.
government contracts.
The SOFA and INL agreements use the term “contractors:, but do not specifically mention "subcontractors."
According to U.S. government officials we interviewed, the term “contractors” was intended to encompass both
prime contractors and subcontractors. The Department of State has issued diplomatic notes to the Afghan
government,18 and DOD’s Office of General Counsel issued a ”Fact Sheet”supporting this position.19 However,



17According  to USAID, this reimbursement was approved in September 2009 on an exceptional basis. USAID determined
that it was appropriate to reimburse the contractor for penalties for late payment of withholding taxes.
18Diplomatic note sent from the U.S. Embassy Kabul to the Afghan Ministry of Foreign Affairs (U.S. Embassy Kabul note 12-

4021, dated September 10, 2012)
19DOD Office of General Counsel Memorandum, Contractors in Afghanistan and Iraq–Assistance in Responding to

Questions Regarding Taxation under the Respective Status of Forces Agreements (March 29, 2011).




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                           Page 7
the MOF has asserted that the DOD and INL agreements apply only to prime contractors, because
subcontractors are not mentioned in the agreements.  Because MOF officials assert that subcontractors
supporting DOD and INL prime contracts do not have tax-exempt status, the MOF requires prime contractors to
withhold a portion of subcontractor payments to meet tax obligations.
Unlike their positions on the SOFA and INL agreements, MOF officials we interviewed concur that USAID’s
agreements apply to all USAID contractors, including subcontractors. USAID’s agreements specifically state
that “…any contractor, grantee or any other organization” is tax-exempt.
Table 3 shows the MOF’s interpretation and applicability of various bilateral agreements and the U.S.
government agencies’ agreement or disagreement.


Table 3 - Afghan Ministry of Finance Interpretation of U.S. Bilateral Agreements
                                                                                       Prime Contractors Tax
    US Government Entity
                                     Prime Contractor          Subcontractor            Withholding for Non-
        (Agreement)
                                                                                       Afghan Subcontractor

DoD (SOFA)a                         Exempt                  Not Exempt              Not Exempt

USAID (Strategic Objective Grant    Exempt                  Exempt                  Not Exempt
Agreements)

State INL (Letters of Agreement)    Exempt                  Not Exempt              Not Exempt

State Non-INL(No Agreement)         Not Exempt              Not Exempt              Not Exempt

Source: SIGAR analysis of various bilateral agreements and interviews with U.S. agencies and Afghan government
officials.
a ISAF Contractors and Subcontractors operate under the Military Technical Agreement, which the MOF interprets as
similar to DOD’s SOFA

US Agency Agrees

US Agency Disagrees



If prime contractors fail to withhold or do not withhold a sufficient amount, they—not the subcontractor—must
pay the tax that would be assessed, plus any associated penalties. For example, our review showed that MOF
penalized one INL prime contractor $1.7 million for failing to withhold payments to a subcontractor; the MOF
later levied an additional $3.3 million for back taxes and penalties associated with this subcontractor, raising
the total assessment to approximately $5 million. At the time of our report, the issue remains unresolved.
Additionally, the MOF levied over $450,000 in taxes on one DOD subcontractor and approximately $900,000
in taxes on an INL subcontractor; the INL subcontractor refused to pay these taxes and closed its Afghan
business activities.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                            Page 8
In the Absence of a Unified U.S. Government Position, Individual Agency Efforts to
Resolve Tax Issues Have Been Unsuccessful and MOF’s Tax Collection Efforts Hinder
Contractors Supporting the U.S. Government in Afghanistan
DOD, State, and USAID are each responsible for the operation and management of their contracts in
Afghanistan and the corresponding taxation issues. According to State, DOD, and USAID officials, the legal
offices of each agency are responsible for the interpretation of each agency’s agreement with the Afghan
government and have dealt with contractor taxation issues only in regard to their respective agencies. DOD,
State, and USAID legal offices each offered interpretations of their own agreements with Afghanistan. As a
result, the U.S. government has created a tax environment for contractors that differs from agency to agency
and allows the Afghan government to take advantage of differences in the application of the various
agreements. Contractors we spoke to that work with multiple U.S. agencies in Afghanistan stated that the
contractor taxation issue can only be solved by presenting a unified approach across agencies.
Interest groups representing more than 400 contractors have asked DOD and State for clarification regarding
Afghan taxation issues impacting their members. In response to these concerns, on March 29, 2011, the
DOD’s Deputy General Counsel (International Affairs) issued a memorandum regarding contractor taxation
concerns in Afghanistan. This memorandum, issued to the DOD Director of Defense Procurement and
Acquisition Policy, stated that the Deputy General Counsel has “tried to resist” and “will continue to resist
direct questions from contractors and their representatives” with regard to taxation issues. This is because of
the Deputy General Counsel’s “firm view that contractors should be addressing any such questions to their
respective DOD contracting officers or their representatives.” The memorandum went on to state that the U.S.-
Afghanistan SOFA constitutes an enforceable international agreement between the two governments, and “no
further action is required by any U.S. Government or Afghan Government department, agency, or official in
order for the U.S.-Afghanistan SOFA provisions to apply to entities and individuals covered by its terms.”
In response to contractor requests for assistance from State, the U.S. Embassy in Kabul has held multiple
meetings with MOF officials to help resolve taxation issues. The Embassy also sent a Diplomatic Note in
September 2012, which reiterated the position that all DOD contractors, including prime and subcontractors,
should be tax exempt and advocated on behalf of U.S. government contractors.20 However, those efforts have
not resulted in any meaningful resolution as the Afghan government continues to levy taxes on work performed
by contractors on behalf of the U.S. government and impose penalties for failure to pay those taxes.
To date, the 43 contractors in our sample have paid $67 million of the $921 million (or about 7 percent) of the
taxes levied by the Afghan government, and most of these contractors still face unresolved assessments. One
of the reasons contractors have not paid the assessed taxes is because the MOF’s tax assessments do not
provide sufficient descriptions of the taxes or penalties levied. As a result of outstanding (unpaid) tax
assessments, the MOF has restricted some contractors’ freedom of movement and refused to renew some
contractors’ business licenses. The inability of contractors to move personnel and goods into, out of, and
throughout Afghanistan or to obtain required licenses hampers contractors’ ability to provide continued
support to U.S. operations. The MOF’s attempted enforcement of tax assessments has also resulted in arrests
and arrest warrants for contractor personnel and freezing of company bank accounts. For example, three
employees of one contractor we interviewed were arrested in January 2013, during a meeting with the Afghan
Revenue Department because the company had an unpaid assessment. These employees were released 3
days later; however, the contractor’s taxation issues persist.



20The US Embassy Kabul engages the Afghan government as the primary U.S. agency responsible for negotiating on behalf

of other U.S. government agencies and its contractors, as well as the interpretation of applicable bilateral agreements.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                          Page 9
Additionally, to import goods into Afghanistan, contractors must complete an Afghan government customs
clearance form—commonly known as the T1 form—and the Afghan government requires contractors to have a
valid AISA license prior to processing the T1 form. Outstanding tax assessments that prevent the renewal of a
contractor’s AISA license therefore prevent the contractor from importing goods necessary to support U.S.
government operations. At least nine of the contractors we interviewed had shipments of goods critical to U.S.
and coalition operations delayed as a result of unresolved tax assessments; the Afghan government also
revoked “freedom of movement” privileges for at least eight contractors since 2009, because they had
outstanding tax assessments. According to one of the affected contractors, these restrictions have delayed
multiple deliveries of cargo destined for U.S. troops, including goods necessary for the construction of new
camps to meet the needs of the shifting military operations.


Contractor Taxation Issues Are to be Included in the New Bilateral Security
Agreement
The U.S. and Afghan governments are currently in the process of negotiating a new bilateral security
agreement to regulate the presence of U.S. military and its civilian personnel in Afghanistan. According to
State officials, DOD contractor taxation issues will be included as a part of the new agreement. They stated
that, as a part of the next bilateral security agreement, many of the current taxation issues would be addressed
to provide clarity to contractors working in Afghanistan in support of DOD operations. However, because the
next agreement is not expected to take effect until the end of 2014, DOD contractors will continue to face
unresolved taxation issues until that time. Furthermore, contractors not covered by the bilaterally security
agreement will likely continue to experience tax problems.


U.S. Laws Do Not Require All Taxes Levied on Foreign Assistance Funds to Be
Reported to Congress
The 2003 Consolidated Appropriations Resolution21 and subsequent annual appropriations22 prohibit the
taxation of U.S. foreign assistance. The legislation requires that if a foreign central government assesses taxes
on U.S. foreign assistance and refuses to reimburse the tax, assistance to that country for the subsequent
fiscal year will be reduced by 200 percent of the imposed tax. This withholding is contingent on the Secretary
of State reporting to the Committees on Appropriations that the foreign government has not reimbursed the
U.S. government for the assessed taxes. However, the prohibition on taxation is limited to certain types of
taxes and types of U.S. government appropriations. Only Value Added Tax (VAT) and customs duties imposed
on imports under foreign assistance programs specifically funded by select titles in the Department of State,
Foreign Operations, and Related Programs Appropriations Acts, which include the Economic Support Funds
and funds provided to INL, are prohibited.23 The limited scope of this prohibition means that the Secretary of
State has not been required to report the $67 million in business taxes paid by the 43 contractors in the
sample for this audit. As a result, the tax risk that contractors and, ultimately, the U.S. government face in
Afghanistan may not be accurately reflected. For instance, the documents provided to us by State showed that



21Consolidated   Appropriations Resolution, 2003, Pub. L. No. 108-7, § 579, 117 Stat. 11 (2003).
22See   e.g., Consolidated Appropriations Act, 2012, Pub. L. No. 112-74, § 7013, 125 Stat. 786 (2011).
23The Consolidated Appropriations Resolution, 2003 and subsequent appropriations require that the taxation of the
Economic Support Fund and funds appropriated to State INL be reported to the appropriations committees. It does not
apply to other U.S. assistance provided under appropriations such as the Afghanistan Security Forces Fund and
Afghanistan Infrastructure Fund.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                      Page 10
in 2010, State reported to the appropriations committees that the Afghan government levied approximately
$4,000 in taxes on foreign assistance. In 2011, it reported $6,000 in taxes levied on foreign assistance.24
Because the 2003 Consolidated Appropriations Resolution and subsequent annual appropriations require only
VAT and custom taxes levied on specific appropriations, such as the Economic Support Fund and INL funds, be
reported to Congress, the Secretary of State is not required to report the $67million in business taxes paid by
contractors. In addition, there is no reporting requirement in the Department of Defense appropriation
legislation, such as the Afghan National Security Fund (ANSF).25 Therefore the Secretary of State is not
required to report taxes levied on appropriated ANSF because those funds are outside the scope of the
prohibition on taxation of U.S. foreign assistance funds. For instance, in a prior audit of fuel contracts for the
Afghan National Security Forces, we identified approximately $15 million in import tariffs and other fees levied
on contractors that were also not required to be reported to the appropriations committees.26 We did not
categorize taxes levied by specific appropriations in this audit; however, given the nearly $50.7 billion
appropriated in the Afghan Security Forces Fund as of January 2013, the amount of taxes levied on these
funds could be significant.


CONTRACTING AGENCIES ERRONEOUSLY REIMBURSED CONTRACTORS FOR
AFGHAN TAXES AND HAVE NOT TAKEN SUFFICIENT STEPS TO HELP
CONTRACTORS OBTAIN TAX-EXEMPTION CERTIFICATES

Our review of INL and USAID contracts and invoices, and our interviews with contracting officers, indicate that
these agencies and responsible officials do not understand Afghanistan's tax laws as they relate to contracts
they oversee and, as a result, have erroneously reimbursed contractors for taxes levied by the Afghan
government. For example, we reviewed six INL contracts and found that four of the contracts stated that the
contractors would be reimbursed for taxes the contractors paid. Specifically, the contract award documents
state that INL will reimburse contractors for VAT taxes as well as "Employee Withholding (BRT)." Furthermore,
"Employee Withholding (BRT)" mistakenly combines two separate and unrelated categories of taxes—employee
withholding tax and business receipts tax—neither of which should be reimbursed by INL. We also reviewed
invoices related to these contracts and found that they contained instances in which the contractors included
business receipts taxes and VAT taxes on the invoices and subsequently received reimbursement from INL. In
2012, INL improperly reimbursed contractors in our sample over $155,000 for claimed "Employee Withholding
(BRT)" taxes and over $595,000 for claimed VAT taxes.27 In our view, this indicates a fundamental
misunderstanding of the current Afghan tax law because Afghanistan does not charge VAT taxes.
Similarly, our review of USAID’s ten largest contract actions in Afghanistan during 2010 and 2011 also showed
that the agency erroneously reimbursed contractors for taxes levied by the MOF from which the contractors
should have been exempt. For example, in one USAID contract, the prime contractor was reimbursed nearly
$160,000 for sales tax. However, USAID’s agreements specifically name sales tax as an exempt category.
Under the same contract, the prime contractor was reimbursed over $13,000 for “tax withholdings.” This
amount should not have been invoiced to USAID. Instead, these taxes should have been withheld from



24These   represent amounts USAID reported to State and do not include any taxes State may have incurred.
25The   Afghan National Security Fund is referred to in later appropriations as the Afghanistan Security Forces Fund.
26SIGAR Audit 13-4, Afghan National Army: Controls Over Fuel For Vehicles, Generators, and Power Plants Need
Strengthening To Prevent Fraud, Waste, and Abuse, January 24, 2013.
27We    have referred this matter to our Investigations Directorate for further consideration.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                                Page 11
subcontractors and not invoiced to USAID as an additional cost. Similarly, invoices for other contract actions
showed smaller amounts charged to USAID in the broad category of “taxes, customs, and duties” even though
these should have been ineligible for reimbursement by USAID. USAID officials responsible for reviewing and
approving invoices told us that they were unaware that these invoices contained taxes that were passed on to
USAID for reimbursement.


Contracting Agencies Have Not Taken Sufficient Steps to Help Contractors Obtain
Tax-Exemption Certificates
In order to qualify for tax exempt status, the MOF requires contractors to obtain a tax-exemption certificate for
their contracts. To obtain the required certificate, U.S. contracting agencies must supply the contractor with a
letter outlining the details of the contract—the contract number, value, and period of performance—they are
supporting. Contractors provide this letter as part of their request to the MOF for a tax-exemption certificate.
Officials from the U.S. Army Corps of Engineers (USACE), a DOD contracting agency covered by the SOFA,
stated that they have not had many issues related to contractor taxation. However, we found that USACE does
not have procedures to help ensure that subcontractors are exempt from taxation. Officials at the Afghan
Engineer District told us that the tax exemption process for their prime contractors requires the contractor to
first obtain a letter of introduction for its work and then submit the letter to the U.S. Embassy Kabul Economics
Office for certification and submission to the MOF. Upon approval, the MOF issues the contractor a tax
exemption letter. USACE officials stated that they may be unaware of subcontractors’ tax issues because
USACE has no contractual relationship with subcontractors.
Similarly, INL has developed a procedure for issuing letters of introduction on behalf of their contractors; but it
does not have a similar procedure for the subcontractors working on its contracts. INL officials stated that they
encourage their contractors to hire qualified Afghan subcontractors but do not advise the contractors on their
tax responsibilities.
CENTCOM Joint Theater Support Contracting Command (CJTSCC) also operates as a contracting command for
DOD in Afghanistan. Like USACE, CJTSCC’s operations fall under the protections delineated in the SOFA.
Unlike USACE, CJTSCC has not developed any procedures to ensure that its contractors receive tax exemption.
CJTSCC contracting officers we spoke with stated that they were unaware of how the taxation provisions in the
SOFA and the Afghan tax code affect their contracts. They stated that they have refused to sign letters of
introduction or assist contractors in the tax exemption process because they believe tax issues are beyond the
contracting officers’ responsibility. But at the same time, DOD’s Office of General Counsel has stated that its
policy is to resist providing advice to contractors because that is the responsibility of the contracting officers.28
CJTSCC employs local Afghan business advisors to assist contractors in complying with local tax laws; however,
a number of the Afghan advisors we spoke with incorrectly stated that contractors supporting U.S. government
contracts were not tax-exempt.
CJTSCC maintains an Acquisition Instruction meant to provide guidance to its contracting personnel for the
appropriate handling of common contracting issues in Iraq and Afghanistan. However, this Acquisition
Instruction does not include any explanation of contracting personnel responsibilities or requirements for
assisting in contractor taxation issues or tax-exempt status. While DOD’s Office of General Counsel has taken
the position that each individual contractor should consult with its contracting officer on tax related matters,29


28DOD Office of General Counsel Memorandum, Contractors in Afghanistan and Iraq – Assistance in Responding to

Questions Regarding Taxation under the Respective Status of Forces Agreements (March 29, 2011).
29See   id.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                     Page 12
CJTSCC contracting officers told us that it was not their responsibility to ensure that contractors receive the
proper tax treatment.
As a result of a preliminary brief of this audit’s potential findings to the CJTSCC commander held on October
23, 2012, the CJTSCC commander drafted a proposed revision to the Acquisition Instruction that details steps
and requirements for the contracting officer to take a more proactive role in helping contractors gain tax-
exempt status. Additionally, the CJTSCC commander developed electronic training to help contracting officers
gain a better understanding of their responsibilities to assist contractors in the tax exemption process.
To help ensure their contractors and subcontractors complete the tax-exemption process, USAID holds periodic
conferences detailing the MOF’s tax-exemption process. In addition, USAID issues letters to contractors
providing verification that the contractor is implementing a USAID-funded program. The contractor must then
provide this letter along with supporting documentation to the MOF and follow Afghan government procedures
to receive tax-exempt status. Although USAID does not have a direct contractual relationship with
subcontractors, it provides guidance to prime contractors, who are then to pass the information on to
subcontractors. Contractors generally provide USAID with a list of all subcontractors they plan to use during
the performance of the contract. The contractor also submits to the MOF a list of those subcontractors that
will perform work in Afghanistan. Subcontractors then receive (1) a verification letter from the prime contractor
identifying their partnership and (2) a copy of the letter acknowledging the prime contractor’s partnership with
USAID.


CONCLUSION

The fact that almost a billion dollars in taxes have been levied—sometimes erroneously—on contractors
supporting U.S. operations in Afghanistan, should be a cause for action by all U.S. agencies involved. The U.S.
agencies need to have assurance from the Afghan government that their assistance funding (that is, U.S.
taxpayer’s money used to build schools, roads, health clinics, water treatment facilities) and funds spent to
secure the country are not improperly taxed. Agreements put in place to ensure that contractors supporting
U.S. agencies’ contracts are not taxed appear to be failing in their purpose. Despite requests from contractors
for clarification on taxation issues, especially on the question of subcontractor tax exemption, U.S. government
agencies, so far, seem unable to provide a definitive and unified response. Further, the U.S. government’s lack
of a unified position with regard to the taxation of contractors has allowed the Afghan government to exploit
the inconsistencies in the terms of agency agreements and has created an uncertain business environment for
contractors. The result is that after 11 years of reconstruction efforts, contractors and U.S. contracting officials
alike are still unclear as to who (for example, prime contractors and subcontractors) and what activities are
supposed to be taxed. The lack of clarity on these tax issues resulted in some personnel working on U.S.
contracts being arrested, increased costs to U.S. government contracts, and may have interrupted contractor
support to U.S. military operations. While we are encouraged by State planning to include contractor taxation
issues in the bilateral security agreement, additional steps must be taken to address current taxation issues.
Furthermore, the 2003 Consolidated Appropriations Resolution and subsequent annual appropriations require
that only certain taxes on specific appropriated funds are reported to Congress. Thus, the over $900 million in
taxes levied on the contractors in our sample were not required to be reported to Congress. If it is Congress’
intent to know the amount of all taxes levied on all U.S. assistance in Afghanistan, then future appropriations
acts should require agencies to report all types of taxes assessed by foreign governments.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                    Page 13
RECOMMENDATIONS

To help ensure that contractors working with U.S. government agencies receive fair tax treatment, we
recommend that the Secretary of State:
    1. Develop a consistent, unified position on what the U.S. government deems appropriate taxation of
       contractors supporting U.S. government efforts in Afghanistan; incorporate clear and complete
       language concerning this position into future bilateral agreements with the Afghan government;
       communicate this position to all contractors; and ensure that any taxes levied by the Afghan
       government are accurately reported to Congress.
To ensure that taxes were not reimbursed inappropriately the Department of State Office of Procurement
Executive and the USAID Office of Acquisition and Assistance should:

    2. Determine if taxes reimbursed by INL and USAID were legitimate and recover any inappropriately
       reimbursed taxes.
To help ensure that contractors gain tax-exempt status and prevent inappropriate reimbursement of taxes, we
recommend that the Department of State Office of Procurement Executive; USAID Office of Acquisition and
Assistance; the Commander USACE; and the Commander CJTSCC:

    3. Develop procedures to help contractors obtain appropriate documentation of tax-exempt status with
       the Afghan government.
    4. Issue guidance and training to contracting officers on how to properly identify taxes in contracts and
       invoices.
    5. Ensure thorough guidance and training that contractors are reimbursed only for eligible tax payments.



MATTERS FOR CONGRESSIONAL CONSIDERATION

To ensure that it has complete information on taxes levied by the Afghan government and to address any
improper taxation by the Afghan government, Congress may wish to:
    1. Require the Secretary of State to report annually to Congress the amounts of all taxes levied by the
       Afghan government on all assistance provided by the United States, either directly or through
       grantees, contractors, and subcontractors.

    2. Require that an amount equivalent to 200 percent of the total taxes assessed by the Afghan
       government on all assistance provided by the U.S., either directly or through grantees, contractors,
       and subcontractors, during any fiscal year be withheld from obligation from funds appropriated for
       Afghanistan assistance for the succeeding fiscal year to the extent that such taxes have not been
       reimbursed.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                               Page 14
AGENCY COMMENTS

We received written comments on a draft of this report from CJTSCC, USACE, State, and USAID. CJTSCC and
USACE concurred with our recommendations and described the actions they are taking to address them. For
example, both agencies discussed CJTSCC’s January 2013 bulletin to heads of contracting activities on the
taxation of defense contractors in Afghanistan and the steps they are taking to incorporate this bulletin into a
new acquisition instruction. Once the new acquisition instruction has been completed, existing training will be
revised and expanded to educate new personnel about issues related to contractor taxation. CJTSCC’s and
USACE’s comments are presented in appendices II and III, respectively.
In its comments, State questioned SIGAR’s authority to examine issues related to the tax treatment of
contracts, particularly those contracts supporting U.S. Embassy operations in Afghanistan. State commented
that its Office of Inspector General and the “General Accounting Office”—now the Government Accountability
Office—are the responsible inspection entities for the review of State’s operations. We are concerned that
State chose to focus initially on the bureaucratic question of which oversight agency is the appropriate one to
examine this issue, rather than turning its attention to devising solutions to the problems we identified in this
report. As we informed State officials on several occasions over the course of our audit, and as our draft report
clearly noted, the audit did not assess the performance of contracts supporting Embassy operations or those
funded with non-Afghanistan reconstruction funds. Nevertheless, our enabling legislation states that we may
conduct audits and investigations of the:
           “treatment, handling, and expenditure of funds appropriated or otherwise made available for the
           reconstruction of Afghanistan, and of the programs, operations, and contracts carried out utilizing
           those funds, including…the monitoring and review of the effectiveness of United States coordination
           with the Government of Afghanistan and other donor countries in the implementation of the
           Afghanistan Compact and the Afghanistan National Development Strategy.”30
U.S. contracting activity in Afghanistan is an intrinsic part of the effort to implement the Afghanistan Compact,
the Afghanistan National Development Strategy, and subsequent agreements. Therefore, we have audit
jurisdiction over issues, such as improper taxation, that affect the ability of contractors to support U.S.
government implementation of those agreements. Furthermore, our audit was coordinated with State’s Office
of Inspector General, the Government Accountability Office, and other U.S. government oversight entities. None
of these other oversight agencies questioned our authority or ability to conduct this audit.
With regard to our recommendations, State generally concurred with three of our recommendations to develop
procedures to help contractors obtain appropriate documentation of tax exempt status, issue guidance and
training to contracting officers on how to properly identify taxes in contracts and invoices, and ensure that
contractors are reimbursed only for eligible tax payments. State commented that it is continuing to consult
internally on how procedures can be improved to help its contractors take advantage of applicable exemptions
and to ensure its contracting offices are able to identify and address specific tax issues that may be raised.
However, State did not agree or disagree with our recommendation to determine if taxes reimbursed by INL
were legitimate and to recover any inappropriately reimbursed taxes. Instead, State requested that we provide
a detailed breakdown and analysis of the taxes we identified in order to determine whether any reimbursement
for taxes were legitimate. We provided State with specific information on the types of taxes we identified
during our exit conference in January 2013. This information should be sufficient for State to implement our
recommendation. Although we are willing to provide additional information on our analysis, we note that it is



30   Public Law No. 110-181, as amended.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                 Page 15
State's responsibility to ensure that the taxes it reimburses are legitimate and to recover any inappropriately
reimbursed taxes.
Moreover, while State did not explicitly agree or disagree with our recommendation to develop a consistent,
unified position on what the U.S. government deems appropriate taxation of contractors supporting U.S.
government efforts, it argued that such a unified position already exists and that it is inappropriate to suggest
that there are inter-agency differences. We disagree. Our finding that contractors have repeatedly requested
and failed to receive guidance on resolving different tax treatment by different federal agencies indicates that
inter-agency differences do, in fact, exist. State suggests that our recommendation advocates that it seek a
treaty or other agreement with Afghanistan exempting all U.S. contractors from taxation. However, State is
incorrect and is misrepresenting our recommendation. We do not argue that all contractors should be exempt
from host country taxation. However, we do believe that the U.S. government needs additional clarity on which
activities are and are not exempt from taxation, that future bilateral agreements should reflect this unified
position, and that this information should be provided explicitly and clearly to U.S. contracting activities and to
contractors.

State also provided technical comments that we incorporated into our report, as appropriate. State’s
comments and our response are presented in appendix IV.

USAID also took issue with a number of our findings and recommendations. First, USAID stated that it has
“exactly the sort of clear, comprehensive agreement in force with the Afghan government that U.S. law and
policy demands.” We agree that USAID has such agreements and our draft report discussed in detail the four
Strategic Objective Grant Agreements with the Afghan government established in September 2005. These
agreements allow U.S. foreign assistance to be used for development and civil society projects and state that
the “assistance... is free from any taxes imposed under laws in effect in [Afghanistan].” The agreements
further stipulate that non-Afghan contractors working on behalf of USAID are tax-exempt. Despite these
agreements, however, we found some instances of taxes that had been reimbursed under USAID contracts.
Contrary to USAID’s comment, we do not dispute that there are some legitimate taxes levied by the Afghan
government―for example, the withholding of income taxes on the salaries of Afghan national employees.
Nevertheless, USAID is incorrect that withholding taxes do not constitute an added cost to the U.S.
government. As our draft report noted, contracting agencies (including USAID), have issued modifications to
reimburse contractors for withheld taxes. Moreover, multiple contractors told us that they increased their
invoiced contract costs to account for withholding taxes. This clearly represents increased costs to the U.S.
government. In our view, the vague nature of the Afghan government’s tax assessments―and not our draft
report as USAID argues―conflate legitimate taxes and activities that should be exempt from taxation.
USAID did not explicitly agree or disagree with our recommendations, but instead stated that they had already
been implemented, were not applicable to USAID, or—in the case of our second recommendation to determine
if taxes reimbursed by USAID were legitimate and to recover any inappropriately reimbursed taxes—lacked
detailed analysis for the agency to implement the recommendation. As we noted in our response to State’s
comments above, our finding that contractors have repeatedly requested and failed to receive guidance on
resolving different treatment of taxes by different federal agencies, including USAID, indicates that USAID’s
“well-established procedures” and “adequately trained” contracting officers are not as transparent or effective
as the agency argues. Furthermore, with regard to having sufficient information to support our analysis, we
provided USAID with a memorandum in January 2013, which detailed the breakdown of taxes on USAID
contractors that were discussed in our report, as well as information from contracts and invoices that were
erroneously reimbursed by USAID. Nevertheless, as with the State Department, it is USAID's responsibility to




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                   Page 16
determine that the taxes it reimburses are legitimate and to recover any inappropriately reimbursed taxes.
Moreover, we have limited confidence in the USAID financial audits that the agency claims “will provide an
added safeguard to ensure that no unallowable taxes were invoiced to USAID.” These financial audits, in a
substantial number of cases, will not occur until many years after funds have been expended. 31 This elapsed
time could increase the difficulty of recovering inappropriately paid reimbursements. Relying on audits after
the fact is not a substitute for having robust processes in place to avoid spending taxpayer funds on
illegitimate taxes. 
USAID’s comments and our response are presented in appendix V.




31 In an April 2012 report, we found that nearly $1.1 billion in funds disbursed by USAID since 2003 had not been subject
to financial audits because of a significant backlog at the Defense Contract Audit Agency, which conducts these types of
audits, and limited funding at USAID. See SIGAR Audit 12-09, USAID Has Disbursed $9.5 Billion for Reconstruction and
Funded Some Financial Audits as Required, But Many Audits Face Significant Delays, Accountability Limitations, and Lack
of Resources, Reissued on May 2, 2012




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                         Page 17
APPENDIX I - SCOPE AND METHODOLOGY

The audit focuses on business income taxes and associated penalties that the Afghan government levies on
contractors supporting U.S. government contracts in Afghanistan. Specifically, our objectives were to
determine (1) the amount and types of business taxes and associated penalties the Afghan government
assessed and the amount paid and reported by contractors supporting U.S. government contracts in
Afghanistan, and (2) the extent to which U.S. government contracting agencies have taken steps to minimize
the tax burden imposed by the Afghan government on these contractors. To accomplish our objectives, we
reviewed relevant guidance, including the Federal Acquisition Regulation, relevant international agreements,
Afghan tax law, and official guidance from U.S. government contracting agencies. We reviewed tax and
penalty information for the period between January 1, 2002 and June 30, 2012.
Since no central database existed that identified business taxes and penalties paid by U.S. contractors
conducting work in Afghanistan, we used several methods to obtain this type of information. We identified
contractors who were likely to have been assessed taxes to the Afghan government by searching the Federal
Procurement Data System (FPDS) database for contractors with operations in Afghanistan. FDPS is a
searchable database of federal contracting actions, maintained by the U.S. government that allows for
queries of contract actions using variables such as contractor name, contracting office, action date, and
place of performance. Based on our review of the database containing over 145,000 contract actions, we
identified the highest valued contracts that were likely to have been assessed taxes. We selected 222
companies and joint ventures to query using a questionnaire. The questionnaire was designed to obtain
information on any tax-related issues pertaining to contract work in Afghanistan. We did not intend to project
the results of this review to the universe of contract actions. In addition to obtaining information using the
questionnaire, we also received information from an additional 29 companies that had either contacted the
audit team or were identified through interviews as having tax issues associated with U.S. government
contracts in Afghanistan. This resulted in obtaining responses from 72 companies. Of the 72 companies, 43
indicated they had paid taxes in Afghanistan and 29 indicated they had not paid any taxes. We used
computer-processed information to identify U.S. contractors in FPDS and validated the information we
obtained through interviews and the questionnaire. We determined that the data were sufficiently reliable to
address our objectives.
To determine the extent to which steps were taken to minimize the tax burden, we reviewed DOD, State, and
USAID procedures for contract awards and reimbursement. We also reviewed contract files representing the
10 highest valued contracting actions between 2010 and 2011, through the Department of State, USAID,
CENTCOM Joint Theater Support Contracting Command (CJTSCC), U.S. Army Corps of Engineers (USACE), and
stateside DOD contracting agencies. Additionally, we interviewed 14 contractors associated with contracting
actions. We also asked the contracting agencies to provide contracting actions with known tax or penalty
issues. Based on this request, we reviewed four additional CJTSCC contract actions and four additional
contract actions from other DOD contracting agencies. After discussions with the Department of State’s INL
Bureau, we received four additional State contracting actions. We assessed internal controls in the process of
reviewing contract files, award documents, requests for equitable adjustments or modifications to the
contracts, and through our examination of 168 invoices.
We conducted our audit work in Kabul, Afghanistan, and Washington, D.C., from June 2012 to January 2013,
in accordance with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. SIGAR conducted this audit under the
authority of Public Law No. 110-181, as amended; the Inspector General Act of 1978, as amended; and in
accordance with generally accepted government auditing standards.



SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                 Page 18
APPENDIX II - CENTCOM–JOINT THEATER SUPPORT CONTRACTING COMMAND
COMMENTS



                                              HEADQUARTERS
                         CENTCOM JOINT THEATER SUPPORT CONTRACTING COMMAND
                                      CAMP PHOENIX, AFGHANISTAN
                                             APO AE 09320

     CJTSCC-CG                                                                                17 April2013


     MEMORANDUM FOR Special Inspector General for Afghanistan Reconstruction, ATIN: Ms.
     Elizabeth Singer, Assistant Inspector General for Audits

     SUBJECT: CENTCOM Joint Theater Support Contracting Command (CJTSCC) Comments on
     Draft SIGAR Audit 13-8, Taxes: Afghan Government Hll~ I P.vied Nee~ rly a Billion Dollars in
     Business Taxes on Contractors Supporting U.S. Government Efforts in Afghanistan


     1 Reference. Draft SIGAR Audit 13-8, April 2013. subject: as above.

     2. The C-JTSCC appreciates the opportunity to review and provide technical comments on the
     draft SIGAR report in Reference 1.

     3. The C-JTSCC is responsible for planning, soliciting, evaluating and awarding contracts that
     support United States and Coalition forces participating in Operation Enduring Freedom. The
     contracts awarded by this command are governed by United States and Afghanistan Status of
     Forces Agreement (SOFA) whtch entered into force on 28 May 2003. 1

     4. The C-JTSCC concurs with the recommendations directed toward the command. In
     response to SIGAR's 23 October 2012 preliminary brief of the audit's potential findings, this
     command took aggressive action to develop procedures and conduct training to address the
     deficiencies noted by SIGAR. Key details are highlighted below.

         a . Recomm endation 3: Develop procedures to help contractors obtain appropriate
     documentation of tax-exempt status with the Afghan government. Reply. On 21 January 2013,
     the comm and published "Head of the Contracting Activity Bulletin 13-Q2 Taxation of Department
     of Defense Contractor in Afghanistan." This bulletin includes an information paper that
     summarizes the tax exemptions for Department of Defense contractors and subcontractors
     performing in Afghanistan under the SOFA and Military Technical Agreement (MTA) between
     the International Security Assistance Force and Afghanistan. The bulletin also includes letter
     templates to be signed by a senior DoD contracting official that allow contractors to seek the
     appropriate tax exemptions from the Ministry of Finance. The templated letters reflect input
     from the Ministry of Finance and have been used successfully by several contractors in
     obtaining recognition of their tax exempt status. The C-JTSCC Acquisition Instruction will be
     revised to mclude guidance that advises contracting officers of their responsibilities and the
     command's procedures in this area.

        c. Recommendation 4. Issue guidance and training to contracting officer on how to
     properly identify taxes in contracts and invoices. Reply. On 4 and 5 November 2012, the

     1
       Agreement regarding the Status of U.S. Military and Civilian Personnel of the U.S. Department of
     Defense Present in Afghanistan wtth Cooperative Efforts tn Response to Terronsm. Humanitarian and
     Civtc Assistance, Military Tratntng and Exercises, and other Acttvtties, entered tnto between the Untted
     States and Afghanistan (whtch was concluded by an exchange of diplomatic notes (U.S. Embassy Kabul
     note No 202, dated September 26, 2002; Afghan Ministry of Foreign Affairs notes 791 and 93, dated
     December 12, 2002. and May 28. 2003, respectively), and entered into force] on 28 May 2003.


     S·\SCO·A\6.1 NEW LEGAL FOLDERIADM INISTRATIVE LAWIAUOITS, INSPECTIONS. INVESTIGATIONS\
     AUDIT S\ SIGAR (13-08) Taxat1on of Contractors (APR-13)




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                        Page 19
     CJTSCC-CG
     SUBJECT· CENTCOM Joint Theater Support Contracting Command (CJTSCC) Comments on
     Draft SIGAR Audit 13-8, Taxes: Afghan Government Has Levied Nearly a Billion Dollars in
     Busmess Taxes on Contractors Supporting U.S. Government Efforts in Afghanistan

     command hosted a Reg1onal Contracting Center/Regional Contracting Office Forum at Bagram
     Airfield. The chiefs and deputies of all subordinate contracting offices within the command
     attended that event and received training focused on the tax status of contractors under the
     SOFA and the MTA. In turn, the chiefs and deputies shared that training with their contracting
     officers. That training has been posted on the command's SharePoint Portal and discussed
     during internal, bi-weekly Acquisition Forums (i.e., conference calls) hosted by the command's
     Director of Acquisition Policy. On 16 November 2012. C-JTSCC drafted two tax clauses for
     inclusion in all solicitations and contracts issued and awarded by the command. The clauses
     inform contractors whether a contract action is subject to the tax provisions of the SOFA or the
     MTA. Those clauses are being reviewed by the Defense Procurement and Polley Office and w ill
     be included in the revised C-JTSCC Acquisition Instruction which will be published shortly.
     Finally, the command will revise and expand existing training to educate new personnel about
     issues related to contractor taxation.

         c Recommendation 5. Ensure through guidance and training that contractors are
     reimbursed only for eligible tax payments. Reply. The command's Acquisition Instruction
     requires all requests for equitable adjustments or claims. regardless of price, to receive a legal
     and policy review. That tiered review process ensures actions taken by contracting officers
     comply with law, regulation and policy. The command's acquisition policy analysts and
     attorneys have received training on the tax exemptions for Department of Defense contractors
     and subcontractors performing in Afghanistan under the SOFA and MTA.

     5. Please note that draft report incorrectly refers to C-JTSCC as the Combined Joint Transition
     Security Contracting Command References in the report should read: "CENTCOM Joint
     Theater Support Contractmg Command."

     6. My staff point of contact for th1s memorandum is the C-JTSCC/FUOPS, which can be
     reached at                                                                                           .



                                                       (lON~ '~
                                                     ~eneral,
                                                                          E
                                                                          US Ar
                                                      Commanding




                                                      2




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                      Page 20
APPENDIX III - U.S. ARMY CORPS OF ENGINEERS COMMENTS



                                             DEPARTMENT OF THE ARMY
                                          UNITED STATES ARMY COR!'S Of ~N(ji NI:I:KS
                                                  TRANSATLANT:C DIVISION
                                                   2 ~~ FORT COLL IER ROAD
                                                WINCHESTER, VIRGINIA 22603
                        REPLY TO
                        ATr£NTION OP
                                                          April 22, 2013

            Internal Review Office




            Mr. John F. Sopko
            2530 Crystal Drive,
            Arlington, Virginia 22202-3940

            Dear Mr. Sopko:

               Enclosed is U.S. Army C orps of Engineers, Transatlantic Division response to
            recommendations 3, 4, and 5 contained in SIGAR Draft Audit Report 13-0M, Taxes: Afghan
            Government Has Levied Nearly A Billion Dollars in Business Taxes on Contractor's Supporting
            U.S. Efforts in Afghanistan.

               My point of contact for these comments is Mr. George Sullivan, Chief, Internal Review at
                                                             .

                                                                   Sincerely,




                                                                  ~~.~
                                                                  JOHN S.~~y
                                                                   Colonel, Engineer
                                                                                       G
                                                                   Deputy Commander

            Enclosure




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                  Page 21
   US ACE Conunent~ to SIGAR Draft Audit Report 13-8, Taxes: Afghan Govenunent Has Levied
   Nearly A Billion Dollars in Business Taxes on Contractors Supporting U.S . E·ITorts in
   Afghanistan

   US ACE comments are provided for each recommendation as shown.

   Recommendation 3: Develop procedures to help contractors obtain appropriate documentation
   of tax exempt status with the Afghan Government.

   USACE Response: Concur. US ACE will leverage the procedures outlined in C-JTSCC-CG
   memorandum, dated 21 January 20 13, subject: Head of the Contracting Acti vity (HCA) Bulletin
   13-02, Taxation of Department of Defense (DoD) Contractors Performing in Afghanistan across
   US ACE contracting activities. l11is memorandum provides Contracting Officers (KO's)
   templates to assist contractors in obtaining the appropriate tax exemptions from the Government
   of Afghanistan.

   Reconunendation 4: Issue guidance and training to KO's on how to properly identify taxes in
   contracts and invoices.

   US ACE Response: Concur. US ACE will apply the guidance outlined in the C-JTSCC-CG
   HCA Bulletin 13-02 across US ACE contracting activities for actions in suppo11 of Operation
   Enduring Freedom. Upon publication of the revised CENTCOM C-JTSCC Acquisition
   Instruction (AI) to include foreign tax provisions for use in solicitations and contracts, USACE
   will update the US ACE AI with similar infonnation to provide standard processes aligned with
   the procedures provided by C-Jl'SCC. US ACE will leverage the electronic training developed
   by the C-JTSCC commander to a~sist KO's gain a better understanding of their responsibilities
   to assist contractors in the tax exemption process. l11e electronic training wiH also be
   incorporated as part of the training curriculum provided by the USACE Deployment Center to
   KO's, Administrative Contracting Officers (ACO's), and Contracting Officer Representatives
   (COR's) deplo ying to Afghanistan.

   Recommendation 5: Ensure, through guidance and training, contractors are reimbursed only for
   eligible tax payments.

   USACE Response: Concur. 'TI1e procedures and processes outlined in the C-JTSCC-CG HCA
   Bulletin 13-02 will be leveraged across USACE contracting activities. USACE will benchmark
   the procedures outlined in referenced HCA Bulletin to provide guidance and !mining to KO's,
   ACO's, and CORs relative to foreign taxes to ensure contractors are reimbursed for eligible tax
   payments.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                              Page 22
APPENDIX IV - DEPARTMENT OF STATE COMMENTS




                                                                         United States Department of State
                                                                         Washington, D. C. 20520
                                                                         www.state.gov


                                                                                         April 22, 2013

            Elizabeth Field Singer
            Assistant Inspector General for Audits and Investigations
            Special Inspector General for Afghanistan Reconstruction (SIGAR)
            1550 Crystal Drive, Suite 900
            Arlington, VA 22202

            Ms. Singer:

                   Thank you for the opportunity to provide the Department of State's comments on SIGAR
            draft Audit 13-8, "Taxes: Afghan. Government Has Levied Nearly a Billion Dollars in Business
            Taxes on Contractors Supporting U.S. Government Efforts in Afghanistan."

                    The Department supports SIGAR's Afghanistan Reconstruction oversight audits and             SIGAR
            investigations of amounts appropriated or otherwise made available for the reconstruction of        Comment 1
            Afghanistan as provided in the statute establishing SIGAR. As has previously been conveyed to
            SIGAR, however, the Department understands that our Inspector General (State OIG) and the
            General Accounting Office, and not SIGAR, are the responsible inspection entities for the review
            of the Department of State's world- wide operational platform, to include Afghanistan. We are
            referring, in particular, to contracts supporting Embassy operations that are funded from the State
            Department's Diplomatic and Consular Programs (D&CP), Embassy Security, Construction, and
            Maintenance (ESCM) appropriation or other operating accounts. We are concerned that, to the
            extent this audit covers the tax treatment of contracts pertaining to "non-reconstruction" funding,
            the audit extends beyond the scope of SIGAR's mandate. Particularly given the important
            distinction between foreign assistance and Embassy operations contracts as it relates to taxation
            by a foreign government, this audit should be limited to reconstruction funding.

                    As SIGAR found while conducting its inquiry, the taxation of foreign contractors
            operating in Afghanistan, as it is in most countries, is often complex. One contractor may have
            contracts with multiple U.S. Government entities, as well as with foreign governments,
            international organizations, non-governmental organizations, and/or private entities. Not all
            work a foreign contractor performs in Afghanistan, including for the U.S. Government, is
            necessarily covered by an agreement with the Afghan Government providing for tax exemption.

                    Accordingly, concluding that "almost a billion dollars in taxes have been levied on           SIGAR
            contractors who should be exempt" is not supported by SIGAR' s analysis (page 13). SIGAR              Comment 2
            acknowledges that it cannot characterize more than $700 million in alleged taxes and penalties,
            (30% less than a billion dollars) (see Table 2). In addition, SIGAR nowhere in its analysis
            otherwise states that it can conclude that all contracts surveyed fall within the U.S. interpretation
            of the applicable bilateral agreements tax exemptions. Insofar as SIGAR's report suggests or
            assumes in its discussion that all U.S. Government contracts are, or should be, currently treated
            as tax exempt by Afghanistan, we urge it to correct such inaccuracies. Specifically, the report




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                              Page 23
                                                                                                                          2


             found that $783 million in taxes were levied on contractors working for "multiple agencies."
             Based on that information, it is impossible for the U.S. Government to determine whether these
             taxes were assessed in violation of any bilateral agreement.



                    With respect to SIGAR's recommendations and identification of Congressional
             considerations:

                    1. Develop a consistent, unified position on what the U.S. government deems appropriate taxation of
                    contractors supporting U.S. government efforts in Afghanistan; incorporate clear and complete
                    language concerning this position Into future bilateral agreements with the Afghan government;
                    communicate this position to all contractors; and ensure that any taxes levied by the Afghan
                    government are accurately reported to Congress.



                     We appreciate and share many of the concerns that motivate SIGAR's recommendation
             that the Secretary of State develop a "unified" position on appropriate taxation of contractors.
             We believe that the United States has such a position already, on a global basis: the United
             States is opposed, for both legal and policy reasons, to paying host country taxes on economic,
             technical, hwnanitarian and related assistance, and therefore seeks exemption for these activities
             via specific bilateral agreements. In accord with this policy, the United States has entered into
             bilateral agreements with Afghanistan to exempt much U.S. assistance from otherwise applicable
             taxes. These include a 1951 General Agreement, four 2005 USAID agreements, and 2003 and
             2006 INL agreements.
                    More generally, we believe it is inaccurate to suggest that there are inter-agency
            differences, or is a lack of unified position on appropriate taxation of U.S. contracts in                    SIGAR
            Afghanistan under the relevant agreements containing exemptions. While there may be                           Comment 3
            differences in the scope of exemptions in agreements that different agencies have negotiated,
            your report confirms that agencies share common understandings on the interpretation and
            application of the agreements in place, even as they are bound by different agreements.

                    We do not have, and do not believe that we could successfully negotiate, a regime with
                                                                                                                          SIGAR
            Afghanistan under which all U.S. government contractors, regardless of for whom they are
                                                                                                                          Comment4
            working or for what purposes, are provided with complete exemption from local taxation. We
            are unaware of any such treaty regime applicable to U.S. government contractors in any other
            country of the world. We have no indication, for example, that Afghanistan is interested in
            providing extraordinary privileges to Embassy operational contractors in Afghanistan. A
            touchstone principle with respect to the rules governing how a diplomatic mission is treated is
            reciprocity- nations extend to each other's envoys the treatment that they want their own to
            receive. The United States cannot easily provide contractors doing work for foreign missions in
            the United States with sales or income tax exemptions. Thus, we generally do not negotiate for
            that privilege from other states. We rely on the Vienna Convention on Diplomatic Relations
            (VCDR)'s provision of exemptions to the mission itself.
                   Any exemption from taxes or customs duty in a country has to be negotiated, and the host
            country has to be willing to provide it. Afghanistan is no different, regardless of the security




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                                        Page 24
                                                                                                                            3

             environment. Consistent with U.S. Jaw and policy, the USG seeks exemptions for a ll U.S.
             foreign assistance from host nation taxation in any bilateral assistance agreement. With respect to
             contracts supporting other types of U.S. efforts, which SIGAR's comment also may address, we
             note that reciprocity may undercut the U.S. government's negotiating position, that we have no
             particular argument that we are entitled under international law to an absolute exemption for all
             contracts, and we would be singling Afghanistan out for different treatment. We believe it is
             most fruitful to concentrate our efforts on resolving outstanding issues with respect to our foreign
             assistance contractors and grantees, and attempting to negotiate to fill gaps with respect to tax
             exemptions for our foreign assistance where issues of reciprocity do not arise.

                     The Department does agree that it is important to communicate with contractors. The
             Embassy maintains on its main website a document, including POC information, on
             "Information and Resources Related to Possible Exemptions from Afghan Taxation for
             Projects Funded by U.S. Government Assistance." The Country Commercial Guide, prepared
             at the U.S. Embassy by the Foreign Commercial Service, provides information to businesses
             operating in Afghanistan, including on the tax treatment of a range of U.S. agency contractors.
             The U.S. Embassy also consistently recommends that U .S. companies retain effective local
             counsel specializing in taxation matters.


                    2. Determine if taxes reimbursed by INLand USAID were legitimate and recover any inappropriately
                    reimbursed taxes.


                     State neither agrees nor disagrees with the recommendation and would appreciate it if   SIGAR
             SIGAR could provide a detailed breakdown and analysis of the taxes that SIGAR identified with Comment 5
             respect to INL, in order to determine whether any taxes potentially paid were legitimate and to
             recover any inappropriately reimbursed taxes.


                    3. Develop procedures to help contractors obtain appropriate documentation of tax-exempt status
                    with the Afghan government.
                    4. Issue guidance and training to contracting officers on how to properly identify taxes in contracts and
                    invoices.
                    5. Ensure thorough guidance and training that contractors are reimbursed only for eligible tax
                    payments.


                     While not all State Department contractors benefit from tax exemptions in Afghanistan,
             or elsewhere around the world, we do believe it is important that exemptions available under
             applicable international agreements are claimed for the benefit of the U.S. Government and tax
             payer. We agree that contracts should be clear about the allocation of responsibility for tax
             burdens, and that such allocation should be informed by an understanding of what taxes may
             need to be paid, as well as the scope of any applicable exemption. A/OPE, relevant legal offices,
             and INL are continuing to consult on how, we might improve procedures to help our contractors
             take advantage of applicable exemptions, and to ensure that our contracting offices are able to
             identify and address specific tax issues that may he raised in their administration of contracts,




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                                        Page 25
                                                                                                              4


             and resolve them consistent with contractual provisions and applicable agreements with
             Afghanistan.




                                   Department of State also provided technical
                                    comments that we incorporated into our
                                               report. as appropriate




                    Additionally, we note SIGAR's discussion of legislation penalizing taxation of U.S.
            foreign assistance funding. We very much appreciate the concern that prompts this legislative
            proposal. We believe that its goal is addressed by the existing aruma! appropriations act
            provision that seeks to ensure foreign assistance funding is exempt from taxation. We note the        SIGAR
            annual provision is worldwide in scope; we would have concerns that SIGAR's proposal would            Comment 6
            single out Afghanistan for less favorable treatment than we provide to other countries. We also
            would have concerns that the legislative proposal's requirement to expand the universe of
            assistance that must be cut would both hamper U.S. assistance efforts at a crucial time in
            Afghanistan, and may impose an artificial timeline on USG efforts to work with the Afghan
            Government to resolve outstanding issues with tax exe ptions for foreign assistance.

                   Thank you again for the opportunity comment,     d we welcL
                                                                             oe Jy questions.
                                                                   cerely,                    •        11
                                                                                       cJ~. :j/   __
                                                                     ty Special Representative for
                                                                      hanistan and Pakistan




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                               Page 26
                              SIGAR Response to U.S. Department of State Comments
1) As we informed State officials on several occasions over the course of our audit, and as our draft report
   clearly noted, the audit did not assess the performance of contracts supporting Embassy operations or
   those funded with non-Afghanistan reconstruction funds. Nevertheless, our enabling legislation states
   that we may conduct audits and investigations of the:

           “treatment, handling, and expenditure of funds appropriated or otherwise made available for the
           reconstruction of Afghanistan, and of the programs, operations, and contracts carried out utilizing
           those funds, including…the monitoring and review of the effectiveness of United States coordination
           with the Government of Afghanistan and other donor countries in the implementation of the
           Afghanistan Compact and the Afghanistan National Development Strategy.”32

       All U.S. contracting activity in Afghanistan is an intrinsic part of the effort to implement the Afghanistan
       Compact, the Afghan National Development Strategy, and subsequent agreements. Therefore, we have
       audit jurisdiction over issues, such as improper taxation, that affect the ability of contractors to support
       U.S. government implementation of those agreements. Furthermore, our audit was coordinated with
       State’s Office of Inspector General, the Government Accountability Office, and other U.S. government
       oversight entities and none questioned our authority or ability to conduct this audit.

2) A draft of this report contained this language, which we have clarified in the final report. The report does
   not suggest or assume that all U.S. government contracts are or should be tax exempt in Afghanistan;
   additionally, all $921 million was assessed on companies directly supporting U.S. government contracts in
   Afghanistan. The exact amount of inappropriately assessed taxes is not determinable because of the
   vague tax assessments issued by the Afghan government. However, based on our audit work, we believe
   that much of the total assessed amount is likely illegitimate.

3) We disagree with State’s argument that a unified position already exists and that it is inappropriate to
   suggest that there are inter-agency differences. Our finding that contractors have repeatedly requested
   and failed to receive guidance on resolving different tax treatment by different federal agencies indicates
   that inter-agency differences do, in fact, exist. State asserts that we are recommending the department
   seek a treaty or other agreement with Afghanistan exempting all U.S. contractors from taxation altogether.
   However, State is misrepresenting our recommendation. We do not argue that all contractors should be
   exempt from host country taxation. Rather, we believe that the U.S. government needs additional clarity
   on which activities are and are not exempt from taxation, that future bilateral agreements should reflect
   this unified position, and that this information should be provided explicitly and clearly to contracting
   agencies and contractors.

4) See SIGAR response three. We agree that it would be difficult to negotiate a tax regime with Afghanistan
   that would exempt all U.S. government contractors from taxation, and we do not make such a
   recommendation. Our recommendation does not ask the State Department to seek exemption for
   Embassy operations. The recommendation suggests that the State Department develop a unified U.S.
   government position concerning which taxes are eligible for exemption and work to obtain agreement from
   the Afghan government.

5) We have provided and are willing to provide additional information on our analysis. However, it is State’s
   responsibility to reimburse only those taxes that are legitimate and to recover any inappropriately
   reimbursed taxes.

6) While we share the State Department’s concern about singling out Afghanistan for less favorable
   treatment, we proposed the matters for Congressional consideration to provide members of Congress with




32   Public Law No. 110-181, as amended.



SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                      Page 27
    greater clarity of taxes being paid in Afghanistan. Any decision as to the applicability of penalties should
    be decided by Congress in future legislation.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                   Page 28
APPENDIX V - U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT COMMENTS



                 USAID
                 FROM THE AMERICAN PEO PLE




     MEMORANDUM                                                                   April26, 2013

     TO:                    John F. Sopko
                            Special Inspector General for
                            Afghanistan Reconstruction (SIGAR)

     FROM:                  Alex Thier, Assistant to the Administrator for Afghanistan and Pakistan

     SUBJECT:               Draft SIGAR Report titled, "Taxes: The Afghan Government bas Levied
                            Nearly A Billion Dollars in Business Taxes on Contractors Supporting the
                            U.S. Government Efforts in Afghanistan" (SIGAR 13-8)

     REFERENCE:             SIGAR Transmittal email dated 04/0112013

     Thank you for providing USAID with the opportunity to review the subject draft audit report.
     Discussed below are our comments on the findings and recommendations in the report.

     PART 1: COMMENTS ON SIGAR's FINDINGS

     Based on the findings of your audit, your report should conclude three central points as regards
     USAID:
                                                                                                      SIGAR
     First, it is clear from this audit that USAID has exactly the sort of clear comprehensive        Comment 1
     agreement in force with the Afghan government that US law and policy demands.

     Second, there are some legitimate taxes levied by the Afghan government on implementing
     partners, e.g. withholding of income taxes on the salaries of Afghan national employees.          SIGAR
     Unfortunately, the audit report conflates legitimate and exempt taxes, thus ftmdamentally failing Comment 2
     to differentiate successful implementation from problems and thereby confusing readers into
     thinking that legitimate tax assessments were levied and paid in error.

     Third, it is clear that USAID works assiduously with the Afghan government and its             SIGAR
     implementing partners to enforce our agreements, thus resulting in almost no examples of       Comment 3
     questionable taxation of USAID partners, despite the alarming title of the report.

     As a matter of principle, USAID takes the taxation exemptions negotiated with the Afghan
     government very seriously, and enforces them firmly. This is central to our duty to safeguard   SIGAR
     taxpayer funds and invest them effectively. Rather than levying vague allegations, we ask below Comment 4
     that STGAR provide us with actionable information resulting from their audit so that we may
     swiftly address any valid claim. USAID takes action to recover any funds that have been paid in
     violation of grant and contract agreements.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                           Page 29
        Specific Point.s

            I. The Afghan government can require the withholding of income taxes for Afghan
               employees of contractors under Afghan law and USAID agreements and the
               withholding represents no additional cost to USAJD. Table 2 on Page 6 indicates that
               the total tax assessed by the Afghan Government on seven USAID contractors was
               $5.223 million categorized under "Witbholdings."

               USAID Response: Under Afghan Jaw and USAID's agreements, Afghan nationals or
               fmns are not exempt from annual income taxes under Afghan law. Consequently, such
               withholding is not a tax on USAID assistance but rather on income earned by
               Implementing Partners' employees or subcontractors. Based on prior financial audits of
               costs incurred by USAID contractors, certain amounts are being withheld by           SIGAR
               Implementing Partners on behalfofthe Afghan Government for taxes due on income Comment 5
               earned by their Afghan employees or Afghan subcontractors.

               Furthermore, the tax withholdings do not constitute addjtional costs to USAID projects.
               The amounts withheld form part of the salaries and wages, rental and other direct costs
               that are valid charges under USAID awards.

               We request that SIGAR provide detruls of the $5.223 million withholdings for further
               evaluation so that we may address thjs recommendation.


           2. Under Afghan law and USAID's agreements, Afghan firms are not exempt from
              ann ual corporate income taxes. On Page 7, first paragraph, SIGAR states "Similarly,
               de!.pite the contractors' tax-exempt status, a contractor working with USAID, DOD, and
               JNL was assessed more than $27 million in Business Receipts Tax and Annual Corporate
               Income Taxes, and a USAID contractor was assessed over$/ million in these taxes and
               incurred associated penalties for the 4 previous years. "

               USAID Response: USAID notes that under Afghan law and USAID's agreements,                SIGAR
               Afghan firms are not exempt from annual corporate income taxes. We request that          Comment6
               SIGAR provide transaction details so that we can confirm validity oflhe tax assessment.
               In addition, this statement is not consistent with Table 2 on page 6 where zero business
               receipts and annual corporate taxes were reported for USAJD.

           3. A single special case in 2009 does not indicate a trend. On Page 7, second paragraph,
              SlGAR states "Contractors we interviewed have.filedfor reimbursements from their
              contracting agencies to recover taxes paid to the Afghan government. One contractor we
              interviewed was granted a reimbursement by USAID for more than $230,000 for taxes
              paid in Afghanistan; ... "




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                           Page 30
                USAID Response: This statement pertains to a one-time reimbursement of$234,391
                approved by US AID in September 2009 on an exceptional basis. USAID determined that
                it was appropriate to reimburse the Contractor for penalty charges for late payment of S IGAR
                withholding taxes for the period April 2007 through May 2008. USAID's final               Comment 7
                determination was based on the fact that the contractor relied in good faith on erroneous
                advice provided by USAID in December 2006 that resulted in the contractor's incurrence
                of late penalty charges. No further penalty charges were allowed to be reimbursed after
                May 2008. USAID will provide supporting documentation upon request.

            4. No supporting evidence from SIGAR On Page 11 , second paragraph, SIGAR states
                "Similarly, our review ofUSAJD 's ten largest contract aclions in Afghanistan during
               2010 and 2011 also showed that the agency erroneously reimbursed contractors for taxes
               levied by the MOF from which the conh·actors should have been exempt. For example, in
               one USA1D contract, the prime contractor was reimbursed nearly $160,000 for sales tax.
               However, USAID 's agreements specifically name sales tax as an exempt category. Under
               the same contract, the prime contractor was reimbursed over $13,000for "tax
               wilhholdings. " -


                USAID Response: USAlD requests supporting documentation for the claim that a prime
                contractor was reimbursed nearly $160,000 for sales tax and a further $13,000 for "tax
                witbholdings". Without this detail, it is not possible to comment and it is possible these
                withholdings were properly assessed.                                                       SIGAR
                                                                                                           Comment 8
         Rather than anecdotal evidence, this audit would benefit from a systematic review of data.
         USAID requests that SIGAR incorporate actionable data and information instead of isolated
         examples without supporting documentation.

         PART II: COMMENTS ON SIGAR'S RECOMMENDATION

         To help ensure that conh·actors working with U.S. government agencies receive fair tax
         treatment, we recommend that the Secretary ofState:

        1. Develop a consistent, unified position on what the U.S. government deems appropriate
        taxation ofcontractors supporting U.S. government efforts in Afghanistan; incorporate clear and
        complete language concerning this position into future bilateral agreements with the Afghan
        government; communicate this position to all contractors; and ensure that any taxes levied by
        the Afghan government are accurately reported to Congress.

        USAID Response: USAID has clear agreements with the Afghan government regarding
        taxation, communicates this clearly to all contractors, and works to ensure that taxes levied are
        according to this agreement. The provisions on taxation under which USAID currently operates
        is part of the 1951 Agreement on Technical Cooperation between the Government of
        Afghanistan and the United States and is general in nature. USAID's Strategic Objective Grant
        Agreements, that implement the 1951 agreement, are much more specific and detailed. These
        agreements already contain provisions related to tax exemptions that are communicated




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                               Page 31
        accordingly to contractors. With regard to the requirement for reporting taxes to Congress, a         SIGAR
        specific clause is already incorporated into USAID awards. Contractors' compl.iance with the          Comment 9
        annual tax reporting requ.irement is reviewed during audits. We therefore deem this
        recommendation not applicable to USAID.

        2. Determine if /axes reimbursed by INL and USAID were legitimate and recover any
        inappropriately reimbursed taxes.

        USAID Response: SJGAR has not provided specific evidence or analysis of improperly
        reimbursed taxes; therefore it is impossible for USAID to implement this recommendation at this
        time. Once SIGAR provides a detailed analysis of the taxes that SIGAR reviewed, USAID can
        conduct such an analysis to determ.ine if the taxes were legitimately reimbursed and to recover
        any inappropriately reimbursed taxes. USAID is very vigilant on this issue in Afghanistan. In
        an analysis that USAID performed of the awards that SIGAR reviewed, there was no evidence
        found that USAID bad improperly reimbursed any taxes. The majority of taxes paid by the
        implementing partners (IPs) were withholdings which are allowable under Afghan law and
        USAID's agreements. The only tax-related payments reported by these IPs that were not
        aiJowable were those fees paid when tax returns were not filed in a timely manner in accordance
        with Afghan law, which requires entities to file a return regardless of whether any taxes are
        owed. In other cases, fees were paid when legitimate and allowable tax withholdings were not SIGAR
        properly made. There was no evidence that these fees had been invoiced to USAID.                comment 10

        In addition, 99% of funds currently under obligation in Afgban.istan, other than funds provided to
        certain Public International Organ.izations (PIOs), are subject to USAID financial audits that will
        provide an added safeguard to ensure that no unallowable taxes were invoiced to USAID. The
        remain.ing 1% of the funds are obligated under fixed priced awards which d uring the evaluation
        of proposals the Contracting Officer would be responsible for ensuring that no budget is
        authorized for unallowable taxes.

        To help ensure that contractors gain tax-exempt status and prevent inappropriate reimbw·semenl
        oftaxes, we recommend !hat/he Department of State Office ofProcurement Executive; USAID
        Office ofAcquisition and Assistance; the Commander USACE; and the Commander C-JTSCC:

        3. Develop procedures to help contractors obtain appropriate documentation oftax-exempt
        status with the Afghan government.

        USAID Comments:
        We consider this recommendation to be fully addressed and therefore, not applicable to USAID.
        USAID/Afghan.istan bas well-established procedures in place for assisting implementing partners
        in availing themselves of appropriate Afghan tax exemptions. The USAID Regional Legal
        Office has two full-time staff who spend a substantial portion of their time addressing issue
        related to tax exemptions and assisting USAID partners on these matters already. The Regional SIGAR
                                                                                                           Comment 11
        Legal Office has held train.ings for all contractors to address the proper procedures for ensuring
        that activities USATD funds are exempt from Afghan taxation as evidenced by the notice sent to
        Implementing Partners OAA-IP-2012-023.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                                  Page 32
        4. Issue guidance and training to contracting officers on how to properly identify taxes in
        contracts and invoices.

        USAID Comments: USAID Contracting Officers are already adequately trained to recognize
        the allowability, allocability and reasonableness of all award costs including taxes. Contracting
        Officers cannot be reasonably expected to be tax experts due to the complexity and ever
        changing nature of tax laws. However, Contracting Officers work closely with the Regional S IGAR
                                                                                                        Comment 12
        Legal Office to help determine the applicability or allowability of any taxes in contracts or
        invoices. Existing guidelines such as the Code of Federal Regulations (CFR), Federal
        Acquisition Regulations (FAR), AIDAR, ADS and other relevant guidance are deemed adequate;
        as such, no further USAID action is necessary.

        5. Ensure thorough guidance and training that contractors are reimbursed only for eligible tax
        payments.

        USAID Comments: The cost principles applicable to assistance and acquisition awards -- as
        contained in pertinent OMB circulars, CFR and FAR provisions -- are specifically referenced in
        award documents. The applicable cost principles are discussed at post award briefings with
                                                                                                        SIGAR
        USAID Implementing Partners (IPs). IPs are directed to refer specific tax questions to their    Comment 13
        CO!,>nizant COlAO. As such, we coru;idt:r lhis rt:commemlalion to not bt: applicablt: to USAID.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                             Page 33
                  SIGAR Response to U.S. Agency for International Development Comments

    1) We concur that USAID has agreements in place and our draft report discussed in detail the four
       Strategic Objective Grant Agreements with the Afghan government established in September 2005.
       These agreements allow U.S. foreign assistance to be used for development and civil society projects
       and state that the “assistance... is free from any taxes imposed under laws in effect in [Afghanistan].”
       The agreements further stipulate that non-Afghan contractors working on behalf of USAID are tax-
       exempt. Despite these agreements, and the processes USAID has put in place to gain tax exemptions
       for their contractors, we found some instances of taxes that had been reimbursed under USAID
       contracts.
    2) Contrary to USAID’s comment, we do not dispute that there are some legitimate taxes levied by the
       Afghan government—for example, the withholding of income taxes on the salaries of Afghan national
       employees. Nevertheless, USAID is incorrect that withholding taxes do not constitute an added cost to
       the U.S. government. As our draft report noted, contracting agencies (including USAID), have issued
       modifications to reimburse contractors for withheld taxes. Moreover, multiple contractors told us that
       they increased their contract costs to account for withholding taxes. This clearly represents increased
       costs to the U.S. government. In our view, the vague nature of the Afghan government’s tax
       assessments, and not our draft report as USAID argues, conflate legitimate taxes and activities that
       should be exempt from taxation.

    3) See response one.

    4) Upon request from USAID, we provided a memorandum on January 31, 2013, detailing the breakdown
       of taxes on USAID contractors that were discussed in our report, as well as information from contracts
       and invoices that were erroneously reimbursed by USAID. While we are willing to provide further
       information, it is USAID’s responsibility to determine actionable conclusions from the information, or—
       ideally—prevent inappropriate charges from the beginning.

    5) The withholdings cited in the Table 2 are not restricted to employee wages of Afghan nationals, but
       include amounts withheld from subcontractors and landlords as well. We are familiar with the
       contention that withholding taxes do not constitute an added cost to the U.S. government; however, as
       we point out in the report, contracting agencies have issued modifications to reimburse for withheld
       taxes and multiple contractors have stated that they have increased their invoices to account for
       withholding taxes. Furthermore, we have previously provided USAID with specific information
       regarding the $5.223 million in withholdings.

    6) None of the contractors cited in USAID’s comment operate as Afghan companies. We have previously
       provided USAID with information concerning the contractors. We have revised Table 2 to accurately
       reflect our data.

    7) The point we make in using examples of USAID (and other agencies) reimbursing contractors for taxes
       paid to the Afghan government was to illustrate the larger problem that taxes may have been
       erroneously reimbursed.

    8) See response four.

    9) The recommendation is directed toward the Secretary of State and is not applicable to USAID.

    10) We have previously provided USAID the documentation requested in this comment. While we are
        encouraged that most of USAID’s funds obligated to Afghanistan undergo financial audits, we have
        limited confidence in the USAID financial audits that the agency claims “will provide an added
        safeguard to ensure that no unallowable taxes were invoiced to USAID.” These financial audits, in a
        substantial number of cases, will not occur until many years after funds have been expended. This
        elapsed time could increase the difficulty of recovering inappropriately paid reimbursements. Relying



SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                Page 34
        on audits after the fact does not substitute for having robust processes in place before payment of
        scarce funding on potentially illegitimate taxes.

    11) As we noted in our response to State’s comments above, our finding that contractors have repeatedly
        requested and failed to receive guidance on resolving different treatment of taxes by different federal
        agencies─including USAID─ indicates that USAID’s “well-established procedures” and “adequately
        trained” contracting officers are not as transparent or effective as the agency argues.

    12) See response one.

    13) See response one.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                                                Page 35
APPENDIX VI - ACKNOWLEDGEMENTS

Matthew Dove, Senior Audit Manager

Jeffrey Brown, Auditor-in-Charge

Zubair Hakim, Senior Program Analyst

Christopher Borgeson, Senior Program Analyst

Donnalee Scharschmidt, Program Analyst



The following staff provided analytical support:

Ryan Heger, Program Analyst




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts   Page 36
                                       This audit report was conducted
                                       under project code SIGAR-060A.




SIGAR Audit 13-8/Afghan Business Taxes on U.S. Contracts                 Page 37
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the US Congress, US agencies, and other
                               decision-makers to make informed oversight, policy, and funding
                               decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by US and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance US interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           US fax: +1-703-601-4065




              Public Affairs   Public Affairs Officer
                                           Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
